<html>
<title> - ONE-YEAR ANNIVERSARY AFTER ENACTMENT: IMPLEMENTATION OF THE WATER RESOURCES REFORM AND DEVELOPMENT ACT OF 2014</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





   ONE-YEAR ANNIVERSARY AFTER ENACTMENT: IMPLEMENTATION OF THE WATER 
              RESOURCES REFORM AND DEVELOPMENT ACT OF 2014

=======================================================================

                                (114-20)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-928 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

CANDICE S. MILLER, Michigan          GRACE F. NAPOLITANO, California
DUNCAN HUNTER, California            DONNA F. EDWARDS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              LOIS FRANKEL, Florida
JEFF DENHAM, California              JARED HUFFMAN, California
REID J. RIBBLE, Wisconsin            EDDIE BERNICE JOHNSON, Texas
THOMAS MASSIE, Kentucky              ANN KIRKPATRICK, Arizona
TOM RICE, South Carolina             DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 ELEANOR HOLMES NORTON, District of 
JOHN KATKO, New York                 Columbia
BRIAN BABIN, Texas                   RICHARD M. NOLAN, Minnesota
CRESENT HARDY, Nevada                PETER A. DeFAZIO, Oregon (Ex 
GARRET GRAVES, Louisiana             Officio)
DAVID ROUZER, North Carolina
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)





















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Hon. Jo-Ellen Darcy, Assistant Secretary of the Army (Civil 
  Works):

    Testimony....................................................     7
    Joint prepared statement with Lieutenant General Thomas P. 
      Bostick, Chief of Engineers, U.S. Army Corps of Engineers..    46
    Responses to questions for the record from the following 
      Representatives:

        Hon. Bob Gibbs of Ohio...................................    54
        Hon. Garret Graves of Louisiana..........................    55
        Hon. Candice S. Miller of Michigan.......................    56
        Hon. Tom Rice of South Carolina..........................    58
        Hon. John Katko of New York..............................    59
Lieutenant General Thomas P. Bostick, Chief of Engineers, U.S. 
  Army Corps of Engineers:

    Testimony....................................................     7
    Joint prepared statement with Hon. Jo-Ellen Darcy, Assistant 
      Secretary of the Army (Civil Works)........................    46
    Responses to questions for the record from the following 
      Representatives:

        Hon. Bob Gibbs of Ohio...................................    61
        Hon. John Katko of New York..............................    64

                       SUBMISSIONS FOR THE RECORD

Letter of June 9, 2015, from Kurt J. Nagle, President and CEO, 
  American Association of Port Authorities, to Chairman Bob Gibbs 
  and Ranking Member Grace F. Napolitano, Subcommittee on Water 
  Resources and Environment......................................    66
Written statement, National Hydropower Association, Linda Church 
  Ciocci, Executive Director.....................................    68
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
   ONE-YEAR ANNIVERSARY AFTER ENACTMENT: IMPLEMENTATION OF THE WATER 
              RESOURCES REFORM AND DEVELOPMENT ACT OF 2014

                              ----------                              


                        WEDNESDAY, JUNE 10, 2015

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10 a.m., in room 
2167, Rayburn House Office Building, Hon. Bob Gibbs (Chairman 
of the subcommittee) presiding.
    Mr. Gibbs. The Subcommittee on Water Resources and 
Environment of the Committee on Transportation and 
Infrastructure will come to order.
    A couple housekeeping issues. I ask unanimous consent that 
Mr. Farenthold may be included in today's hearing.
    Is there an objection?
    Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 30 days after this hearing in order to accept written 
testimony for the hearing record.
    Is there an objection?
    Without objection, so ordered.
    Welcome today. Today we are having a hearing on the 1-year 
anniversary after the enactment of the implementation of the 
Water Resources Reform and Development Act of 2014. One year 
ago a strong bipartisan message was sent by Congress and the 
President with the enactment of the Water Resources Reform and 
Development Act of 2014.
    Congress has made a conscious effort in WRRDA 2014 to 
enhance America's competitiveness by strengthening investments 
in the Nation's water resources infrastructure, including 
ramping up Harbor Maintenance Trust Fund expenditures for their 
intended purposes.
    A high priority of any administration should be to put the 
United States at a competitive advantage in the world markets, 
especially since world trade patterns are expected to be 
dramatically different when the Panama Canal expansion becomes 
operational early next year.
    Additionally, when Congress enacted WRRDA 2014, there were 
several high-priority provisions included in the law, 
provisions that related to the Harbor Maintenance Trust Fund, 
the Inland Waterways Trust Fund, permit processing, project 
acceleration, and a new mechanism for project authorizations.
    WIFIA [Water Infrastructure Finance and Innovation Act], 
public-private partnerships, and the deauthorization of old and 
inactive projects were included in a law that was signed by the 
President in June of 2014. While the WRRDA law is 
transformative and, in some places, complicated, we remain 
disappointed at the pace and the prioritization at which the 
U.S. Army Corps of Engineers [Corps] is carrying out the 
drafting of the implementation guidance.
    Today, at the 1-year anniversary of enactment of WRRDA 
2014, we would hope and expect that the Corps would put more of 
a priority in writing the implementation guidance. After all, 
WRRDA is the law of the land. It is not a suggestion for the 
administration to casually disregard.
    Much of the implementation guidance that has been issued 
tracks closely with the intent of Congress with a few 
exceptions. However, these guidance documents pertain to some 
of the less complex provisions contained in WRRDA 2014.
    The Corps appears to have done an excellent job in 
following congressional intent associated with the study 
acceleration provision, specifically the issuance of the 3x3x3 
guidance. Unfortunately, the same cannot be said for the 
implementation of the new authorization provisions carried out 
pursuant to section 7001 of WRRDA 2014.
    The annual report is intended to reflect a broad spectrum 
of activities for Congress, not the administration, to consider 
in authorizing future water resources projects. The job of the 
Corps, under section 7001, is primarily an administrative one; 
that is, the Corps is to collect proposals, screen them against 
the five criteria in the law, and simply report the findings.
    The contents of the first annual report did not meet this 
committee's expectations not only in terms of the number of 
proposals submitted by non-Federal project sponsors, but also, 
how the administration used this process as a way to promote 
their priorities and not those of their customers. We look 
forward to fixing this process going forward.
    For some of the more complex provisions, like WIFIA and 
contributed funds, the Corps customers--the non-Federal 
stakeholders--are still waiting to benefit from these sorts of 
reforms provided in WRRDA 2014.
    Even some of the commonsense provisions, like the use of 
benchmarking for non-Federal improvements to Federal projects, 
permanent acceleration activities through the section 214 
program, or the public-private partnership provisions, are 
suffering for what appears to be an inattention from the Corps.
    WRRDA 2014 accelerated the project delivery process, 
promoted fiscal responsibility, strengthened transportation 
networks, increased transparency, and increased congressional 
oversight in prioritizing future water resources investment. 
WRRDA 2014 was transformative. It is complex and requires 
thoughtful implementation by the Corps to ensure it carries out 
of the intent of Congress.
    While implementation has not met the committee's 
expectations so far, we look forward to continuing to work with 
the Corps to ensure that WRRDA 2014 is carried out in a fashion 
that benefits the Nation.
    I want to pass on a note of thanks to General Peabody. 
While General Peabody is not an official witness today, he is 
at the table and he joins the hearing to answer some of the 
more complex questions.
    General Peabody is retiring from the United States Army in 
the coming weeks. He is a native of my home State of Ohio. I 
want to thank him for his distinguished service of 35 years in 
the military service and wish him well in the future.
    I also look forward to testimony from Ms. Darcy and General 
Bostick.
    Now I recognize my ranking member, Mrs. Napolitano, for her 
statement.
    Mrs. Napolitano. Well, thank you so very much, Mr. 
Chairman, for holding today's hearing on the status of 
implementation of WRRDA 2014, which today is its first 
anniversary.
    I wish to welcome our two witnesses, the Honorable Jo-Ellen 
Darcy and Lieutenant General Thomas Bostick, and thank them for 
their service to our country and, also, to their hardworking 
staff, which we have great respect for. It is good to see you 
both again.
    But before I proceed, I would like to take just a brief 
moment to thank both of you for your work on the final clean 
water protection rule. Along with the EPA [Environmental 
Protection Agency], your organization put a great deal of 
time--over a decade--and effort into crafting the final rule, 
and it is very evident.
    Thank you for your thoughtfulness with which you engaged 
State and local governments and other stakeholder 
organizations. I do believe the final rule responded to many 
concerns as well as the criticisms of the proposed rule. We are 
grateful for your dedication to protect our Nation's water 
resources.
    I would also like to thank you for the great degree of 
flexibility and responsiveness you have shown us in southern 
California as to respond to historic continuing drought.
    Also, the deviation of Whittier Narrows Dam will eventually 
increase the amount of water captured and conserved for 
groundwater recharge in the area. And it is indicative of the 
types of solution-oriented flexibility we need to deal with in 
drought conditions, especially as regards to the acceptance of 
non-Federal funds to help on important projects throughout the 
West.
    With no end in sight of the drought, I expect there will be 
many more opportunities in the future for all to work together 
not only in California water conservation efforts, but all the 
Western States. Again, thank you so very much.
    As for today's hearing topic, implementation of WRRDA 2014, 
the Department of the Army and the Corps of Engineers have now 
had a year to develop implementation guidance for a variety of 
reforms.
    Most important to the Western States and to California is 
the water supply issue, that the dams capture and recharge some 
of our aquifers; the public-private partnership, the funds 
being able to allow acceptance of those which we have been 
working on for at least 5, 6 years; and, also, to the port 
trust fund, the implementation, being able to get some of those 
funds back to do the work that needs to be done in our ports.
    WRRDA 2014 had a goal of increasing flexibility at the 
Corps of Engineers, modernizing the programs. Our reforms were 
intended to assist the Corps project delivery process by 
accelerating the method by which the projects and studies are 
carried out. As the chairman was pointing out, we have some 
concerns about how fast those are being carried out.
    The Corps has been slow to implement the reforms contained 
in 2014's WRRDA. Implementation guidance has been issued for 
only 40 percent of the provisions. And we would expect that the 
Corps would swiftly embrace the reforms of WRRDA, but I am 
concerned that declining budgets have limited your ability to 
complete the work.
    I am hoping that you will be able to clarify that somewhere 
along the line because, if you are getting less and asked to do 
more, I think we need to understand that that is hampering your 
ability to get the work done.
    In particular, I am concerned that the Corps has not issued 
any guidance for section 1046 of WRRDA 2014, a section intended 
to assess the management practices of the Corps reservoirs in 
arid regions of the country and their impacts to water supply 
during periods of drought.
    The findings of this assessment and your recommendations 
could be part of the solution to the drought. And so today we 
don't see any guidance on those issues.
    With that said, I am happy to welcome our witnesses back to 
the subcommittee. And our goal is to continue to expand the 
dialogue between the Corps and our subcommittee so we can move 
forward to achieving a common goal of meeting our Nation's 
water resource needs in an expedient manner that protects 
public safety, allows for economic viability, and ensures the 
protection and improvement of the environment.
    Mr. Chairman, I agree with you. I think we need to work 
together. And I would be happy to provide any assistance I can. 
Thank you so very much.
    I yield back.
    Mr. Gibbs. At this time I recognize the gentleman from 
Pennsylvania, the chairman of the Committee on Transportation 
and Infrastructure, Bill Shuster.
    Mr. Shuster. Thank you, Chairman Gibbs.
    Thanks to Secretary Darcy, General Bostick, and General 
Peabody for being here today.
    It is critical that we get water resources back on the 
congressional schedule of doing it every Congress, and our 
intent is to do that not this year, but next year, in this 
Congress. I think it is important to make sure that these 
projects move forward and that we have consistent oversight.
    As we turn the page to the next WRDA [Water Resources 
Development Act], there are major issues of implementation that 
we don't think are being followed, for instance, the section 
214, which we put in there, which we though would be very 
helpful to the Corps, providing dollars from the private sector 
to help move projects forward, and extremely helpful, we 
believe, to the private sector.
    It seems to be slow-walking implementation, and for the 
life of me I can't understand that. It would be helpful, as I 
said, to both the Corps mission and to standing up these 
projects and moving them forward.
    Even more concerning, the administration seems to be 
misinterpreting the new project authorization process that we 
established under WRRDA. The annual report required under WRRDA 
gave the Corps the opportunity to provide Congress with a list 
of non-Federal project sponsor priorities that reflect the 
needs of the Nation. Instead, the administration chose to 
provide Congress a list of the Corps priorities.
    We were pretty clear in setting out the criteria that are 
related to the mission and authorities of the Corps, one; two, 
requires specific congressional authorization included by the 
act of Congress; three, have not been congressionally 
authorized, which is key, which a major part of the reform is 
to be able to move these projects forward without waiting on 
the Federal Government.
    Instead of letting these projects sit around and wait for 
years and years and years, the locals can come up with the 
money and continue to see these projects move forward. It is 
absolutely critical.
    Fourth is to have not been included in any previous annual 
report. And fifth is, if authorized, could be carried out by 
the Corps of Engineers. So, again, these are key provisions in 
the last water bill that don't seem to be moving forward.
    The priorities of the States and local governments aren't 
being met. And, again, that annual report was intended to 
reflect a broad spectrum of activities for Congress, not the 
administration, to consider in authorizing future water 
resources projects.
    So I expect the Corps to address these. As we move to the 
next water resources bill, we are going to have to just tighten 
them up. I just don't understand why this, what I think has 
been voted on in an extremely bipartisan way in this Congress 
with a vote of 400-and-some to very few--this is something that 
Congress wants. It is something the Corps should take up with 
breakneck speed and move these forward.
    So I look forward to hearing your testimony today. I yield 
back. Thank you.
    Mr. Gibbs. I recognize the gentleman from Oregon, the 
ranking member of the full committee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. I appreciate the 
opportunity.
    And I thank the Corps for being here.
    Actually, I am a fan of the Corps, but I think you are 
going to hear some concern and frustration from a number of us 
up here today in the execution of the last Water Resources 
Development Act.
    First, let's put down a marker. Last time I checked--and 
someone on the panel can probably correct me--the Corps had 
more than a $40 billion--``b,'' billion--backlog of critical 
infrastructure that needed repair or replacement. That is not 
acceptable.
    And in the last WRRDA bill at the end of the year, the 
industry itself, the inland waterway users, wanted an increase 
on diesel tax and it was done in the yearend deal to begin to 
help defray some of the costs of the dysfunctional locks and 
levees and all the other problems that we have. So there is 
blame to go around here with the Congress.
    Secondly, when we talk about the section of the bill that 
the chairman was just talking about, this was an attempt to 
restore what I always thought was a good principle, which is 
those who were elected from local areas better understand the 
needs of their constituents and their infrastructure than the 
main offices of the Federal bureaucracy in Washington, DC. So 
we used to have earmarks. Now earmarks got a bad name. I won't 
go into that for various reasons. And they were banned. Well, 
that was stupid.
    So now we have a totally opaque process where spending 
priorities are determined somewhere in the administration, 
mostly by trolls over at OMB [Office of Management and Budget] 
who are accountable to no one and who do things that are 
invisible to everybody until they pop up. So that was dumb.
    And we tried to get around that by requiring the Corps to 
evaluate locally submitted projects. And the Corps, perhaps at 
the behest of OMB, followed a Reagan-era Executive order and 
refused to follow the statutory requirements put on them by 
Congress and gave us back an anemic little list and excluded 
everything else and said they had substituted under the Reagan 
Executive order their own priorities and that they had 
authority to ignore us because we didn't say they couldn't use 
other criteria.
    Well, obviously, we will correct that in the next bill. We 
will say: These are the only criteria you may use, period, end 
of story, statute, law, signed by the President. You have to 
follow it no matter what some jerk down at OMB says.
    But we have a couple of years until we get there or a year 
and a half. And I would hope that we can be more productive 
during that time period in revisiting this issue, you know, 
this year, and that we can get freed from these--it is really 
clear what the intent of Congress was. And if someone in the 
administration wants to stonewall us, you know, that would be 
very unfortunate.
    I would hope that this year we get more compliance with 
that statute, and I also hope that we begin to recognize that 
the Corps is underfunded, these are critical infrastructure 
needs, there is a difference between investment and just plain 
old spending, and we need to be investing more in bringing it 
up to a state of good repair.
    With that, I yield back the balance of my time.
    Mr. Gibbs. Thank you.
    I would like to welcome our panel today. Today we have the 
Assistant Secretary of the Army, Secretary Darcy. We have 
Lieutenant General Bostick, Chief of Engineers, U.S. Army Corps 
of Engineers. And assisting at the witness table is General 
Peabody.
    So, Secretary Darcy, the floor is yours.

 TESTIMONY OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE 
ARMY (CIVIL WORKS); LIEUTENANT GENERAL THOMAS P. BOSTICK, CHIEF 
           OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    Ms. Darcy. Thank you, Mr. Chairman and distinguished 
members of the committee. We are honored to be here today to 
testify about the implementation of the Water Resources Reform 
and Development Act of 2014.
    WRRDA 2014 provides new authorities to the Secretary of the 
Army to support the Nation's water resources needs by 
transforming existing processes and further enhancing 
collaboration with our stakeholders. As the Assistant Secretary 
of the Army for Civil Works, I am responsible for the overall 
supervision of the U.S. Army Corps of Engineers as we develop 
the guidance and the authorities of WRRDA 2014.
    My goal is to continue to improve the Army's ability to 
serve the changing water resources needs of this Nation and to 
integrate water resources management. In order to implement 
WRRDA 2014, guidance is written to provide a common 
understanding of how the law will be implemented and which 
policies need to be amended to ensure consistent application of 
the law across the Nation.
    Implementation guidance is prepared in a thoughtful manner, 
which takes time. A draft of the guidance is developed by and 
vetted within the Corps and then coordinated with my staff and 
Army General Counsel. As WRRDA 2014 contains many provisions 
that significantly change the way the Corps operates, we sought 
public input in developing our implementation guidance.
    We held four listening sessions between August and 
September of 2014, with over 800 individuals participating in 
the sessions. We gained valuable information from these 
stakeholders regarding their views on the implementation of 
many of the WRRDA 2014 sections. In addition, we accepted 
written comments as well.
    In October of 2014, the comments from the listening 
sessions and the written comments were compiled, organized by 
sections of the act that they related to, and distributed to 
the subject matter experts within the Corps for their use in 
drafting implementation guidance.
    We have given priority for implementation guidance to 
national policy provisions and to those project and program 
provisions where funds have been appropriated. All completed 
guidance is posted on the Corps Web site. I will provide the 
link to this Web site. It is in the written testimony, as well.
    Our joint written testimony focuses on the major categories 
of the national policy provisions contained within the act and 
the key provisions in those categories. These categories 
include project development and delivery, deauthorizations and 
backlog prevention, alternative financing, sponsor-led studies 
in construction, levee safety, work-in-kind credits, expediting 
the evaluation and processing of permits, navigation, and water 
supply and reservoir management. Implementation of this very 
important legislation has been and remains a priority for the 
Army and for the Corps.
    Now I yield to General Bostick.
    Mr. Gibbs. General Bostick, welcome.
    General Bostick. Chairman Gibbs, Ranking Member Napolitano, 
full committee Chair Shuster, and Ranking Member DeFazio and 
distinguished members of the committee, I am honored to testify 
before you today, along with the Assistant Secretary of the 
Army for Civil Works, the Honorable Jo-Ellen Darcy, on the 
implementation of the Water Resources Reform and Development 
Act of 2014.
    The United States of America is extremely blessed by 
natural resources, particularly our rivers and harbors. And the 
history of our Nation is written on our waterways. The U.S. 
Army Corps of Engineers has proudly served on the Nation's 
waterways since the very beginning, building coastal 
fortifications, dredging channels and designing and 
constructing locks, dams, and other navigation features.
    Today we remain the world's continental maritime Nation. No 
other country even approaches the blessings of reliable access 
to oceans and inland waterways as the United States. The 
ability to leverage our extensive interior navigable waterway 
system is essential to our economic advantage and geopolitical 
dominance.
    The Nation's harbors, channels and waterways handle 
approximately 2.3 billion tons of commerce annually. Ninety-
eight percent of overseas trade, valued at more than $1.72 
trillion, moves through Corps projects. Starting in the early 
19th century, the development of multipurpose projects helped 
to provide additional benefits to the Nation.
    One out of every four megawatts of hydropower produced in 
the United States is generated by the U.S. Army Corps of 
Engineers power plants. We are the largest renewable energy 
producer in the United States.
    Additionally, we welcome over 370 million visits a year at 
403 lakes and river projects in 43 States. As the Nation's 
communities were devastated by floods, coastal storms, and 
other natural disasters, our mission expanded to include flood 
and storm risk reduction. Historically, USACE [U.S. Army Corps 
of Engineers] projects avoid $8 of damage for every $1 
invested.
    In 2014 alone, our projects prevented over $14 billion 
worth of damage. In just the past few weeks, our projects have 
been severely tested by the incredibly heavy rains in Texas, 
Oklahoma, and Arkansas, where all initial reports are that the 
USACE projects have played a major role in assisting those 
States.
    Following the passage of the Nation's environmental laws in 
the 1970s, our mission expanded further to cover environmental 
stewardship and restoration. Scores of rivers, wetlands, and 
water bodies have been protected by Corps regulatory programs 
or restored and enhanced by Corps disposal facilities, 
research, and environmental projects.
    Historically, our water resources and maritime 
transportation system have made us the envy of other Nations. 
However, the state of our Nation's infrastructure today is 
threatening our national security. The American Society of 
Civil Engineers has graded our infrastructure at a D-plus. 
According to the world economic forum, the quality of U.S. 
infrastructure ranks 14th in the world out of 144, 7 slots 
lower than in 2008.
    As we look forward, the U.S. Army Corps of Engineers is 
continuing to implement the reforms outlined in WRRDA 2014 as 
we have done with previous WRDA legislation, including 
successful implementation of the planning modernization for 
Chief's Reports.
    For example, during the 7 years since the inception of 
Civil Works transformation efforts in 2008, 48 Chief's Reports 
have been completed. During this time, 12 Chief's Reports were 
completed in the first 4 years and 35 were completed in the 
last 3\1/2\. We are clearly becoming more efficient.
    This legislation is making a difference in our ability to 
deliver sustainable infrastructure projects that are 
economically viable, environmentally feasible, and technically 
justifiable.
    I look forward to our discussion today and to continuing 
our work with members of this committee to improve the state of 
our Nation's vital infrastructure, and I look forward to your 
questions.
    Mr. Gibbs. Thank you.
    I will start off the questions.
    Ms. Darcy, in a recent 2016 budget hearing we had and, 
also, in a letter, we requested a list of projects that met all 
five of the statutory criteria that was not included in the 
first January report.
    I am going to ask you a series of questions and, just to 
make it easy for you, just yes or no on all of them.
    First question: Are you familiar with the Brazos Island 
Harbor Channel project in southeast Texas that has a signed 
Chief's Report? Are you familiar with that project?
    Ms. Darcy. Yes.
    Mr. Gibbs. Has the Chief's Report been congressionally 
authorized?
    Ms. Darcy. No.
    Mr. Gibbs. Does Congress need to authorize this Chief's 
Report so that the Corps can carry it out?
    Ms. Darcy. Yes.
    Mr. Gibbs. If authorized, can the Corps carry out the 
Chief's Report?
    Ms. Darcy. Yes.
    Mr. Gibbs. OK. Does the Chief's Report relate to the 
mission of the Corps of Engineers, your mission?
    Ms. Darcy. Yes.
    Mr. Gibbs. Your staff is shaking his head yes back there.
    Has the Chief's Report been in any previous annual reports 
in Congress? And I will answer that one for you. It is 
obviously no.
    Ms. Darcy. No.
    Mr. Gibbs. So we know there is one project in the appendix 
of the first annual report to Congress that is supposed to be 
included in the actual report. This was supposed to be a simple 
exercise.
    Now that we know there is at least this one project that 
met all five criteria--because those five questions I asked you 
is the five criteria--would you please provide us promptly a 
list of projects that meet all five criteria that are 
erroneously contained in the appendix.
    And I will also say, in the first report, there were 19 
projects, studies, not listed in the annual report, but there 
are 95 studies, projects, modifications that were in the 
appendix.
    And as we just demonstrated with the Brazos Island project 
that was in the appendix, it should have been in the annual 
report, as provided, of what we did in WRRDA.
    You may respond.
    Ms. Darcy. Congressman, you wanted a list of the projects 
that were in the appendix that----
    Mr. Gibbs. That meet the five criteria, as my ranking 
member stated so eloquently in his opening remarks. It just 
amazes me that--you know, I am very concerned about the 
administrative review process that the Corps is holding to. And 
there's other ways for the administration to prioritize their 
projects. The President can do it in his budget when he offers 
his budget to Congress.
    But, clearly, in WRRDA 2014, we set up this mechanism. And 
as long as it meets those five criteria, it has to be in the 
report and not the appendix because there's consideration--if 
it is in the appendix, we can't act on it. And so that means if 
we--you know, our goal, as Chairman Shuster said, is to have a 
WRDA bill done every Congress. But if it is in the appendix, we 
would have to wait to get that in the next reports and the next 
WRDA bill and see that delayed mechanism. That is our concern.
    And so we are being kind of adamant about holding this--
meets those five criteria. It should be in the report. And so 
we make the decision, the Representatives of the people here, 
and not the administration. There are other ways to voice their 
priorities.
    Ms. Darcy, in section 1009 of the WRRDA 2014, electronic 
commerce required a report to the committee within 180 days of 
enactment to demonstrate how the Corps is complying with the 
procurement law.
    While clearly the Corps of Engineers has missed this 
deadline, when can we expect to see the report, as required in 
that section?
    Furthermore, can you characterize the discussion with the 
State agencies, local communities, and other Federal agencies, 
software vendors, the contractor community, and others about 
the benefits of electronic bidding?
    General Bostick. Chairman, I will take this one.
    We have been working this very hard within the Corps. We 
believe this is something that we absolutely need to do. We are 
behind where we should be.
    We have two of our districts, Savannah and Fort Worth, that 
are currently piloting electronic receipt of proposals.
    We expect that in another 60 days we will be able to put a 
report together to determine the way ahead. But we absolutely 
agree that we need to move forward in this area.
    Mr. Gibbs. I am glad to hear that, because I think my 
understanding was some stakeholders out in the vendor 
community--that there is some work being done in electronic 
procurement with DOD, but the Corps has been kind of out there 
and hasn't been where they need to be at least with the rest of 
the Department of Defense.
    So I yield my time now--or not yield my time--to my ranking 
member for any questions she may have.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    I certainly would like to pose again the budget resources 
issue, Madam Secretary, that my colleague brought up.
    Do you need any additional personnel financial support in 
order to achieve full implementation? Because I know that is a 
critical question for me.
    Ms. Darcy. Congresswoman, we are operating within our 
fiscal constraints and are doing all that we can in order to 
get to implementation, especially the implementation guidance. 
It is not complete yet, but we are working to get it done as 
expeditiously as possible.
    We have put a tiger team together from our districts to 
focus just on the implementation guidance over the next couple 
of months so that they can get this done.
    Mrs. Napolitano. Thank you.
    Under title IV of 2014 water resources law, several 
provisions addressing the growing water infrastructure crisis, 
financing and the wastewater issue. In subtitle C of that 2014 
title V, it authorized the new water infrastructure financing, 
or WIFIA, to encourage additional private sector financing.
    Do you have an update on implementation? And when can the 
program be ready for borrowers and lenders? And are you working 
with EPA and the Department of Transportation to learn from 
their experience in TIFIA [Transportation Infrastructure 
Finance and Innovation Act]?
    Ms. Darcy. Yes, we are. Actually, we are working closely 
with EPA. We are about to enter into a memorandum of 
understanding about how exactly we will be able to work this.
    As you know, this infrastructure bank for WIFIA is a loan 
guarantee program and the Corps of Engineers is not a loan 
guarantee or a granting agency.
    So trying to fit the provisions of WIFIA into our kind of 
projects is something that we are trying to focus on and work 
through with EPA and, also, looking to the experience of TIFIA 
with the Department of Transportation.
    Mrs. Napolitano. Do you have any idea how long that is 
going to take, ma'am?
    General Bostick. The staff is working this currently, and 
we believe this summer we will have an analysis completed.
    Mrs. Napolitano. I know. But one of the programs may end 
out in September and we are going to lose some funding from a 
local private nongovernmental entity.
    General Bostick. We understand, Representative, and we are 
working this as aggressively as we can. As Secretary Darcy 
said, this is new for us.
    Mrs. Napolitano. Right.
    General Bostick. We have been working hard on an analysis 
of how this would fit into our program and getting smart on 
loan guarantees and working closely with the EPA, but this 
summer we feel we should be able to have some resolution of the 
way ahead.
    Mrs. Napolitano. Please keep us informed.
    The other question to both of you is--I met with General 
Peabody recently to get an update on the ongoing drought, which 
is quite critical in California and the Western States, to look 
at more flexibility for the water storage, especially in 
purposes of the dams.
    And in the 2007 WRDA, there was a provision for a drought 
study to encourage the Corps to work with Commerce, inventory 
actions that could be taken by agencies to reduce the impact of 
drought, and it was set back for lack of funding, I understand, 
and being called a lower priority.
    Given the fact that we have serious drought issues in the 
West, I was just wondering if there is going to be a 
reprioritizing of this particular study that would be able to 
help the Western States. And it is coming to mind, as General 
Bostick was mentioning, that Texas has an inordinate amount of 
water.
    Do you have any recommendations in addition of how we can 
store that water and replenish aquifers? Because we will be 
continuing with drought cycles, as we are all aware.
    General Bostick. There are several things that we are 
working on. First, the deviations that we have made in the past 
year, we have learned a lot from those. We think on a case-by-
case basis we can turn those decisions fairly quickly and allow 
for more water supply.
    Our engineering research and development team is also 
working very closely with other interagency partners who have 
funding to look at atmospheric rivers and the possibility of 
rain in the atmosphere as it moves from the west to the east to 
have better indication of when that will happen and how we can 
better prepare.
    The other thing we are working on is our dam certification 
and making sure that the dams are structurally sound so that, 
if we want to increase the amount of water, we are capable of 
doing that.
    Mrs. Napolitano. Especially in areas that are very 
critical.
    Could I get a commitment, possibly, to revisit the 2007 
WRDA study?
    Ms. Darcy. Congresswoman, I think we should take a look at 
that, given the----
    Mrs. Napolitano. I would really appreciate it.
    Ms. Darcy. We will take another look at that.
    And, also, as far as your provision 1046 in the WRRDA bill, 
I think it is important to finalize that implementation 
guidance.
    Mrs. Napolitano. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Chairman Shuster.
    Mr. Shuster. Thank you, Chairman Gibbs.
    And, again, thanks, everybody, for being here.
    As I think Mr. DeFazio said, there is a lot of frustration 
on this committee dealing with the Corps. And, as we went 
through the process last time, I thought we worked with the 
Corps to try to put new programs and procedures in place.
    One of the first things we embraced was a Corps idea, the 
3x3x3, which we thought was great. We codified it, working with 
you folks.
    So, again, the first thing is: How many feasibility 
studies, based on the new 3x3x3 program, do you believe will be 
approved during this Congress between now and next year?
    General Bostick. Seventeen this year.
    Mr. Shuster. There are 10 now. Right? An additional seven?
    Ms. Darcy. An additional----
    Mr. Shuster. OK. Seventeen total. All right.
    Well, again, I think it is a good program that you folks 
developed, and we embraced it and moved forward with it. Now 
the section 214 I spoke about--which, in the 2014 WRRDA, it is 
section 1006--that program has been in place as a small--I 
guess we call it a pilot project--since 2000, again, allowing 
the public utility companies, natural gas companies, and other 
public entities to participate in that, giving you the funds to 
help move the process, where it doesn't guarantee them a 
permit.
    I don't understand why the implementation has been delayed. 
When you have already been doing it, it should be something 
that we just sort of turn the spigot on a little, open it up a 
little more, so we get more things in the pipeline, so to 
speak. Can you talk to me about that.
    Ms. Darcy. That guidance is imminent. I needed to send the 
delegation authority to the Secretary of the Army to delegate 
it to me, which I have done. So I am just waiting for that. It 
should be coming any day.
    Mr. Shuster. Imminent in Washington could mean a decade. I 
mean, are we talking about months?
    Ms. Darcy. No.
    Mr. Shuster. Your understanding?
    Ms. Darcy. My understanding is less than months.
    Mr. Shuster. Well, that is good news to hear, because I 
think that was one of the most important reforms that we put in 
place. I know the industry is very eager, and I know that 
dealing with my colleagues at the time--Mr. Rahall was very, 
very supportive. So that is very good to hear.
    The second thing that I think Chairman Gibbs mentioned is 
the annual report. We really need to revisit that and to make 
sure that these projects can move forward without 
authorizations. And there are a lot of them out there, again, 
one of the major reforms you put in place. Let's get these 
things moving.
    It should be helpful to you folks, too, to see projects 
moving forward. And then, when Congress catches up, the money 
catches up, you can begin to participate. So I would encourage 
you to keep working on that.
    The other thing that--and I am not going to talk about it 
because I don't know the details. I know Mr. Rice is here. But 
the Port of Georgetown, which talked to the Corps. The Corps 
came up with a number. The politicians, the local folks voted 
on a referendum, I believe, to fund it. After it was funded, 
the Corps came back and said, ``Oops, it is more money.''
    Those are the kinds of things that happen. And what happens 
is the folks that represent the people in that area go to the 
people and say, ``This is what we are going to do. We are going 
to open our port up, which is going to be a huge economic 
benefit to us'' and then the Corps moves the goalpost on them.
    You know, that is something we need to revisit. I have been 
talking to Mr. Rice about it. If there is any way that the 
folks at the Port of Georgetown can cut the Corps out, I would 
recommend they do that, say ``To hell with it. Let's just do it 
ourselves and not sit around and be jerked around on this 
thing.''
    So those are the kinds of things that just cause tremendous 
frustration up here for Members. And things like this tend to 
occur all over the country.
    So I would encourage you to revisit the Port of Georgetown 
and try to figure out a way because it is an economic benefit. 
It is something good for the Nation. And that should be 
something that I know you folks--I know you folks consider 
that. Again, these communities are just getting hammered by it.
    As I said, I think Mr. Gibbs covered it pretty well in his 
questioning. Those reports that come forward, the non-Federal 
entities, they are chomping at the bit to do this.
    So can you talk a little bit about, build upon, what Mr. 
Gibbs said? Is that something that we are looking at that you 
are going to be revisiting?
    Ms. Darcy. Referring to the 7001 report?
    Mr. Shuster. Yes.
    Ms. Darcy. Yes. We put out additional guidance this year. 
Each year we have to put a notice in the Federal Register in 
order to solicit the proposals from local sponsors and from 
non-Federal entities.
    And we made some changes in that this year. I think we have 
made it clearer about what is needed in the proposals in order 
for us to consider them. This last time we didn't really get 
cost estimates that were universal. Some of them had cost 
estimates for a study, but not for construction.
    We have also asked our division and district commanders to 
work closely with the proponents of these proposals in advance 
of their submission so that they know just exactly what is 
required and what is needed.
    If there was an existing authority that the Corps already 
had, the project would be in the appendix, and this was 
confusing for some of them. I think some of those authorities 
weren't clear. So if there is an existing authority, there is 
no additional authorization needed for a proposal.
    Mr. Shuster. Well, I know Chairman Gibbs requested a list 
of those. Can you commit to giving it to us so we can see them?
    Ms. Darcy. Yes.
    Mr. Shuster. OK. And, finally--I know my time has expired--
the disappointing rate of implementation. I know our folks are 
saying it is 20 percent. You are saying it is 40 percent.
    I would like the general to commit to a weekly 
teleconference with our staff to keep us updated on what is 
happening with the pace of implementation.
    General Bostick. Certainly, Chairman, we will do that.
    One of the things that is different in this case than 
before is that we have kind of made haste slowly as we moved 
into this.
    Mr. Shuster. What is that? I didn't hear.
    General Bostick. We made haste slowly. We went quickly, but 
we were cautious because we went out and talked to a lot of the 
public.
    We wanted to make sure we had listening sessions to allow 
input before we jumped into our work. We did a number of 
listening sessions to let the public talk about their concerns. 
And then we took that into consideration.
    We got off to a little bit of a slower start than we would 
have liked, but we are moving out now and we think we are on a 
good path forward. And we will keep you up to date.
    Mr. Shuster. Thank you very much.
    I yield back.
    Mr. Gibbs. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Madam Secretary, let me just get this straight. In response 
to Mr. Gibbs and Mr. Shuster, you are now going to respond to 
question 2 in our letter of April 21, which is those projects 
that went into the appendix.
    You are now going to evaluate each of those projects under 
the five criteria and only the five criteria submitted by 
Congress and provide that back to us. Is that correct? Is that 
what you just said?
    Ms. Darcy. Congressman Gibbs asked for a list of those 
projects that were in the appendix----
    Mr. DeFazio. Yeah. Well, we have that. That is easy. We can 
look at the appendix. That is what you referred me to in 
response to a letter.
    What we asked you for was you take each one of those 
projects and apply yes or no to the five criteria enumerated in 
the statute.
    Is that my understanding, that we are going to get that 
done?
    Ms. Darcy. We will do that. Yes, we will.
    Mr. DeFazio. OK. Excellent. Thank you.
    Now, I don't want to get anyone on the spot, although since 
General Peabody is retiring in 2 weeks--congratulations, sir--
you could answer the Mike Parker question.
    Now, some might remember Mike Parker. And I asked Mike in a 
hearing here--I said, ``Is this budget adequate to meet the 
critical needs of the Nation's infrastructure as it relates to 
the Corps mission?'' And Mike said, ``No.'' A week later he 
resigned for family reasons.
    Anybody want to answer the question today? General?
    General Peabody. Sir, I will tell you that I have been 
personally counseled by Mr. Parker to avoid his example.
    Sir, in my personal judgment, it is clear that this Nation 
has lost sight as a Nation. And I don't think this is exclusive 
to any particular branch of the Government or any echelon of 
Government.
    But the Nation has lost sight of the importance and the 
reliance of our infrastructure to the health of our economy and 
the natural resources that that infrastructure helps preserve 
and maintain.
    We are partly, I think, victims of our success. As General 
Bostick said earlier, we build out this great infrastructure 
and, at one point in the middle to latter part of the last 
century, we were clearly the envy of the world. I don't think 
that that is necessarily the case in all circumstances.
    So I think one of our biggest challenges is really to 
understand the inherent value of that infrastructure and the 
alternative histories that did not happen because that 
infrastructure exists.
    The clearest example in my own mind is the great flood, the 
2011 Mississippi River flood, which was the greatest flood in 
the recorded history of that river. And, yet, in contrast to 
the 1927 flood, it was not a catastrophe.
    In that flood alone, well over $230 billion of damages were 
prevented as a result of the expansive Mississippi River and 
Tributaries project. But because the catastrophe did not occur, 
it is very difficult for our citizenry to understand the impact 
and the value of this infrastructure.
    So, to me, it is really one of understanding the value and 
then making investment choices on how to fund that. In my 
personal opinion, we don't have to do that from the Federal 
Government.
    That is why I think it is very important that we continue 
to work with the Congress on some of the alternative financing 
provisions that you have included in this WRRDA, which I think 
are a good first step, but I also think need to be further 
developed and expanded upon.
    It is something that we need to pursue. So I think how we 
fund it is the critical question for the Nation to continue to 
contend with.
    Mr. DeFazio. Well, thank you, General. That is the best 
response I have ever gotten to that question, and I agree 
wholeheartedly with it. And you did it very diplomatically. So 
thank you.
    Quick question about the 10-percent set aside. Seems to be 
some confusion. Some of my ports have heard that someone in the 
bowels of OMB has interpreted the 10 percent to be a cap and 
not a floor.
    Secretary Darcy, can you tell me whether it is a cap or a 
floor?
    Ms. Darcy. I see it as a guideline as to what should be in 
the bill.
    Mr. DeFazio. That is kind of evading the question. So it is 
not a cap.
    Ms. Darcy. It is not a cap.
    Mr. DeFazio. OK. That is the best I can do, probably. Thank 
you.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Crawford.
    Mr. Crawford. Thank you, Mr. Chairman.
    I would like to thank General Peabody for your comments. 
The region to which you referred, obviously, my district is a 
big part of that. And I appreciate that. It was very historic.
    And everything functioned as it should have. So the 
evidence of what was spent in the technology and the resources 
that went into that weren't as readily apparent, had there been 
considerably more damage and loss of life.
    So it is a hard thing to communicate to folks who actually 
benefit from that. But thank you for your insights and 
comments. And I wish you well in your retirement.
    I know we are here to talk about WRRDA. But, Madam 
Secretary, I just have a few quick questions.
    Has the rule been finalized at this point?
    Ms. Darcy. The rule has been finalized, but it has not been 
published in the Federal Register as of this morning.
    Mr. Crawford. Why not?
    Ms. Darcy. It is a process that is done through the Office 
of Management and Budget, and it is merely mechanical at this 
point. The rule has been signed and has been finalized. It just 
has not appeared in the Register.
    Mr. Crawford. When do you expect to have that submitted?
    Ms. Darcy. I would expect it within the week.
    Mr. Crawford. Have there been any responses to comments or 
other support documents finalized?
    Ms. Darcy. The response to the comments document, yes.
    Mr. Crawford. They have been?
    Ms. Darcy. Yes.
    Mr. Crawford. OK. Great.
    Let me ask you this on WRRDA. Section 1047 of WRRDA 
authorizes special use permits for recreational activities at 
public recreation areas that you see around lakes and 
reservoirs operated by the Corps and for the fees generated at 
those locations to be retained and used on the site collected.
    What progress has the Corps made in finalizing the guidance 
on that provision?
    General Bostick. The special permit is under review 
currently.
    Mr. Crawford. It is under review. OK.
    I am concerned about the progress on that. Do you 
anticipate a day when the Corps might finalize that guidance?
    Ms. Darcy. Headquarters has forwarded it to my office. I am 
not going to use ``imminent,'' but any day now.
    Mr. Crawford. OK. Again, I'm a little concerned about the 
slow progress made in the implementation of WRRDA. Today is 365 
days.
    Why has the Corps implemented just under 40 percent of a 
law that was enacted 1 year ago? I mean, it seems like there 
has been slow progress, Madam Secretary.
    General Bostick. Part of it--and I will let the Secretary 
talk--the last WRDA in 2007 was primarily projects, and this is 
more process and policy and working through the law.
    So, again, before we started finalizing implementing 
guidance, we went out and we had listening sessions to make 
sure that we were listening to Congress, but also listening 
firsthand to the local people and what their interests and 
concerns were. And then we came back and started implementing 
guidance process.
    You are correct. We are at 38 percent now. We believe we 
will be at about 50 percent by the end of the calendar year 
and, within the 2-year period that we are required, finish most 
of the work.
    Mr. Crawford. OK. How are you prioritizing at this point? 
It seems like you may have been kind of focused on low-hanging 
fruit instead of the more consequential guidance on critical 
items, for example, section 1047 that I referred to earlier. 
How are you prioritizing?
    General Bostick. Actually, we prioritize by looking at the 
hardest first. We went to the very tough issues that we thought 
we needed to tackle and took those on first.
    We also looked at resources and time available. When we saw 
that we needed more people, we put a tiger team together and 
brought them in.
    So, again, we got off to a slow start, but we believe we 
have the people and the process in place to continue to move on 
smartly.
    Mr. Crawford. Thank you.
    Before I yield, again, General Peabody, I wish you well in 
your retirement. Your leadership in the MR&T [Mississippi River 
and Tributaries] and Mississippi Valley Flood Control and those 
issues has been very much appreciated by my constituents. Wish 
you all the best in your retirement.
    I yield back.
    Mr. Gibbs. Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. And thanks 
to the chair and ranking member for having this hearing and 
celebrating the anniversary.
    My question really goes to the general progress and where 
we are. Back in--I think it was 2007--there was a study done 
even before then--might be 2002--that said that we would need 
about $17 billion or $18 billion every term for 20 years to 
catch up on the needs of Corps programs, projects.
    Where are we as related to that study and progress?
    Ms. Darcy. Is your question, Congresswoman, what is our 
backlog or what is our current expenditure rate?
    Ms. Johnson. Backlog and projects. Where are we in terms of 
the infrastructure needs, water needs of the country, and 
moving along with where it was determined by a major study back 
then?
    Ms. Darcy. We are operating our program within the budget 
constraints we face. One thing, as a result of WRRDA 2014 that 
I think has been a great addition to what we are doing, is the 
requirement that we look at the deauthorizations, and that is 
underway.
    That is going to give us a better handle on not only what 
we have that is out there, but what is no longer required to be 
part of our inventory as to water resources projects that are 
still viable for the country.
    So I think, as a result of that, we are going to be able to 
get a better understanding and handle on how to look forward 
with those projects that are no longer necessary.
    Ms. Johnson. I know what the budget restraints are, but I 
was wondering whether or not we were keeping pace to the needs.
    I am from Dallas, Texas, as you know, and we just had 
floods. And thank God we had the pump station going that saved 
a lot of homes from being flooded as much this time and some of 
the work on the Trinity River paid off.
    But I know that it could have been better. We could have 
been further along. But I know that other places are dealing 
with some of this major weather change and the type of flooding 
disasters we are having.
    And that was a very major study back then on what was the 
projected needs. Whether you get them will obviously depend on 
what we are willing to do here.
    But I wondered how far we have come in attempting to 
address the major needs and how they will continue to occur. 
Because this study predicted that it would take $17 billion to 
$18 billion every term for 20 years in order just to come even 
with what the needs were at that time.
    General Bostick. I don't have a number for you, 
Congresswoman. But what I will say is that it goes back to our 
challenge with the requirements and the resources as a country 
overall.
    If you look at this year's budget, we have a little over $1 
billion, $1.2 billion, in construction. If we were to complete 
all of the construction of the ongoing projects, it is about 
$23 billion we would need. We are obviously not going to have 
that.
    So, simple math, it is about 15 years that it is going to 
take to do that work. So part of what WRRDA does is give us an 
opportunity to look at alternative financing, which we are 
aggressively doing now, because the Federal Government cannot 
do this on its own.
    But there are many, many more requirements out there than 
there are dollars available, and the Federal Government cannot 
do all of this. We are working aggressively to find public-
private partnerships, contributed funds, and other methods that 
will help us sustain a program that is currently unsustainable.
    Ms. Johnson. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Webster.
    Mr. Webster. Thank you, Mr. Chairman, for putting together 
this anniversary discussion on WRRDA. It is a good bill. It is 
great to look back and talk about how good the policy was.
    I would like to thank Secretary Darcy and General Bostick 
for their leadership on Everglades restoration in Florida. 
Thank you for what you have done. You have made lasting 
contributions to the help of the ionic river of grass in 
Florida and all of these species and economies and communities 
that it supports. Thank you so much for what you have done.
    I would like to focus in on section 5014, dealing with P3, 
public-private partnership pilot program, where up to 15 
federally authorized projects can be transferred to non-Federal 
entities.
    And I would just like to ask: How much have you completed 
on implementation? And are there any policy changes or 
challenges that have arisen as the Corps has been working on 
implementing that P3 section? I guess I would ask General 
Bostick first.
    General Bostick. Congressman, first, we are very 
appreciative of what WRRDA has done, particularly in this area. 
Just in my previous comments talking about the funding gap for 
the Nation, this is one of those areas where we had already 
been working prior to WRRDA to try to find ways to 
alternatively finance some of these projects.
    Currently we have seven demonstration projects separate and 
apart from WRRDA, but they are similar to what the end state is 
of P3. They are efforts to look at other methods, and this is 
going to better inform us on the pilots that we are required to 
do under WRRDA.
    We do have some complications that we are trying to work 
through on the WRRDA P3 pilots. Some of that includes the 
budget scoring. We are working closely with OMB. I have had 
several meetings on how we can look at the scoring process.
    There are other issues that we are working through, but 
this is a tough one for us. But we are committed to moving 
forward on it. We have hired someone that wakes up every day 
and thinks about P3. That is their job, and they have a team 
that is working on this.
    I have met with a group of CEOs [chief executive officers] 
that are very anxious about participating in this, if we can 
find a mechanism to move forward where their investments are 
secure for a long term.
    We have done this on the energy side on the military 
installations where we have done energy savings performance 
contracts. They are P3. And investors have helped us on our 
installations, and their payback is 30 or 40 years. We have 
done the first one of those on a Civil Works project.
    So we have got a long way to go on this, Congressman, but 
we are working it as hard as we can.
    Mr. Webster. Secretary Darcy, do you have anything to add?
    Ms. Darcy. Just that some of the demonstration projects 
that General Bostick referred to are a variety of projects. 
They are flood control projects. They are navigation projects, 
looking for other ways to finance or cofinance some of the 
dredging, not the O&M [operations and maintenance], within our 
authority, and what we are looking at, too, is do we have any 
barriers within our authorities to prevent us from P3s and, if 
we do, we want to seek modifications for some of those to 
enable us to go forward.
    We are looking at a project called a separate delivery that 
the private sector would perform or build part of the project 
and the Federal Government would build another part. So just 
different ways to approach projects from how we have in the 
past.
    Mr. Webster. Thank you very much. Just to let you know, I 
know myself, Ms. Frankel, and many others on this committee are 
willing partners in this. I mean, it is not just something we 
just sort of took a look at and thought: Well, this might be 
nice. We are willing to help out in any possible way to 
implement this. We think it is a very good picture of what 
might be able to happen in the future.
    So I yield back.
    Mr. Gibbs. Ms. Frankel.
    Ms. Frankel. Thank you very much, Mr. Chair.
    I want to thank you all for your service. And I associate 
myself with Mr. Webster's remarks in regards to the Everglades 
and also give you my thanks.
    I know we have given you a huge complicated task, and I am 
confident you will succeed. I want to focus specifically for a 
moment on section 1014, which allows the non-Federal sponsor to 
prefund the preconstruction engineering and design phase, and 
the construction phases, and later seek reimbursement or credit 
upon authorization, and that, more specifically, for those 
projects that did not receive a Chief's Report in the last 
authorization, or any authorization, they can move forward with 
their project.
    And I want to use Port Everglades as an example since I am 
from south Florida and it is a huge economic generator for us, 
that port. We would not be able to be in the Chief's last 
authorization. As you probably know, they have been waiting 18 
years for a Chief's Report. And they are ready, willing and 
able to do the PED [preconstruction engineering and design] 
work. And I know you are close to a Chief's Report, but now 
there are a couple of new roadblocks. And I would like you to 
tell me how we can get past them.
    First, the port apparently was told that the Corps needs 
$77,000 to pay the expenses to negotiate a PED agreement with 
the port, number one. And, number two, we were also told that 
the Corps needs to come up with another $70,000 to complete the 
Assistant Secretary review before the Chief's Report is sent to 
Congress. So, first, could you explain that to me? Aren't you 
getting paid? You need more money to get paid to do your job? 
That part I don't understand.
    General Bostick. Congresswoman, I am not aware of the 
details that you are providing, but we will track this down and 
work this with the district. I believe this is something that 
we can work out. It may be working in the staff and already 
something that has been approved.
    Ms. Frankel. OK. Well, that would be good if we could do 
that because, as I said, time is money and the big ships are 
going to start passing Port Everglades by if they are not able 
to move on this.
    And related to section 1014, again, do you know where you 
are in terms of the implementation guidance on that provision?
    General Bostick. This is currently under development.
    Ms. Frankel. OK, you told me that last time, but I guess 
you are still developing it.
    General Bostick. We are much closer than we were when we 
talked to you before.
    Ms. Frankel. I am going to go to my next question.
    General Bostick. What I would say is that we have some of 
this work ongoing already, and even though we are developing 
this guidance, the guidance already exists in a couple of our 
engineering regulations. For example, Miami was able to proceed 
with the same sort of guidance, and others are proceeding. So 
this is not holding up any work in this area, but we are still 
pursuing the guidance.
    Ms. Frankel. OK. Well, I think the port in Broward would be 
a very good example for you to move on.
    Next question, I think we spoke about this at the last 
hearing, which is the Broward Segment II Shore Protection 
Project and wanted to know whether or not that is still on 
track to begin work in November? Anybody know the answer to 
that?
    Can you find that out for me?
    Ms. Darcy. We will.
    Ms. Frankel. Excellent.
    And our last question, which is section 2008 of the water 
bill directs the Corps to assess the operation and maintenance 
needs of the Atlantic Intracoastal Waterway. For us, the 
intracoastal down in south Florida is primarily used for 
recreational uses--500,000 recreational vessels annually with 
almost a $12 billion economic impact, 66,000 jobs. It is huge 
for south Florida. Studies have shown that these benefits would 
be significantly reduced if the waterway is not properly 
maintained. So I am wondering, what is your status of the 
intracoastal assessment?
    General Bostick. Congresswoman, we are still assessing this 
particular section. Funds are going to be required to do this, 
so we are looking at the allocation of funds in the different 
sections. This one has not been allocated funds to work on at 
this point.
    Ms. Frankel. If you would just keep me apprised and let us 
know how I can help. And I know Mr. Webster is going to help 
too, right? Thank you.
    I yield back, Mr. Chair.
    Mr. Gibbs. Mr. Denham, you are recognized.
    Mr. Denham. Thank you, Mr. Chair.
    Secretary Darcy, Congress took steps last year to the 
House, to the Senate, President signed WRRDA. Specifically, 
section 1006 allows public utility companies and natural gas 
companies to participate in an already established program with 
the Army Corps to expedite the processing of permits. For the 
folks I represent, this means a more transparent and timely 
process. One that is predictable.
    I understand that the Army Corps of Engineers held a 
listening session in September of last year to receive public 
input on the development of implementation. I understand that 
the guidance for section 1006 still has not been issued. Can 
you tell us what is happening, give us an update on the status 
of the guidance document, and specifically what you expect to 
be finalized and implemented?
    Ms. Darcy. Yes, Congressman. Earlier, I said that I needed 
to get delegation authority from the Secretary of the Army, 
which is imminent, and I assured Congressman Shuster that it 
would be any day now.
    Mr. Denham. Thank you, I yield back.
    Mr. Gibbs. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I do appreciate this followup hearing on WRRDA.
    I am particularly interested in the levees. You have 
authority under the current WRRDA bill to do cost sharing. And 
I would like to ask a question of General Bostick and perhaps 
Assistant Secretary Darcy about where we are on this cost-
sharing evaluation of levees for FEMA [Federal Emergency 
Management Agency], FEMA's National Flood Insurance Program.
    General Bostick. Congresswoman, the Corps has worked very 
closely with FEMA in making provisions to help identify how the 
USACE levee information, when we go out and do levee 
certifications, how we can use that for the FEMA levee 
certification purposes. So that work is ongoing.
    Working with FEMA, we are updating our policies currently 
to specify how data from our detailed risk assessments--our 
inspections and our screening--can be used on the National 
Flood Insurance Program. So we are moving on pretty well on 
this. I think we are on track.
    Ms. Norton. The reason, General Bostick, I am interested in 
it is, basically, I would like to see more streamlining. And I 
am wondering if you think that this cost sharing will speed up 
levee certification and the revision of flood maps which, of 
course, follows.
    General Bostick. I wanted to make sure that I was clear in 
what I was talking about. What we are doing is data sharing. We 
expend a certain cost to do our risk assessments and our 
inspections. And before, those were separate and distinct from 
what FEMA was doing. So the consumer and the American public 
would see these two folks coming out, but we weren't sharing 
information.
    Ms. Norton. Sharing information and sharing cost as well?
    General Bostick. In a sense it is, because if we have paid 
to do a risk assessment that covers, let's say, five of the 
items that FEMA would normally need, then it saves them from 
having to do it.
    Ms. Norton. Well, that is really what I am most interested 
in.
    General Bostick. It would save costs, and that process is 
well underway.
    Ms. Norton. Save costs and perhaps save time. I am 
interested in the Seventh Street levee. That, of course, was--
this is one of the most important areas in the country because 
it protects the entire monumental core, the Washington 
Monument, most of our monumental buildings, even parts of local 
District of Columbia neighborhoods, and certainly, downtown 
Washington.
    There were problems, initially, with the contract. You got 
that back--going. And last year they finished the levee. And I 
understand that the levee is fully operational, and I'm very 
pleased that that has finally occurred, that the contract 
itself is closed, except for very few minor matters.
    The Army is certifying--the Army Corps is certifying the 
levee, and FEMA must redraw, of course, the flood maps.
    Because, after the certification, there will be whole 
communities that are outside of the flood maps.
    Now, I am interested to know when the--if the levee--if 
the--if the Army Corps is working with FEMA, if you're working 
simultaneously, so that the flood map process runs concurrently 
with the certification process.
    These are--this is one of these mixed kinds of Government 
processes that can really confound the public. Since you are 
both working on the same facility, since you're both looking at 
things that are in tandem, can you do that concurrently rather 
than one, namely, the Army Corps move and then marches in FEMA 
to do some of what the Army Corps has already done, but 
necessitated by the fact that they are two different agencies. 
Why can't they simply get it done, move together, and get it 
over with to streamline the process?
    General Bostick. I am now clear on the question, ma'am.
    FEMA is responsible for the levee accreditation. So the 
Corps will, first, perform the levee system evaluation that is 
needed for FEMA.
    Ms. Norton. Simply to certify that it is--that is the 
normal certification process that this levee is good, and here 
comes FEMA.
    General Bostick. There is engineering----
    Ms. Norton. Yes.
    General Bostick [continuing]. Design and construction that 
our technical experts bring to the situation. They provide that 
to FEMA, and then FEMA does the accreditation. My staff is 
saying that in the fall of this year is when that will be done.
    Mr. Gibbs. The gentlelady's time is expired.
    Another round of questioning.
    Mr. Rouzer.
    Mr. Rouzer. Thank you, Mr. Chairman.
    I want to thank each of our witnesses for being here with 
us today. And while I was not serving in Congress when this 
bill passed last year, I want to thank each of you and the 
agency for carrying out section 1037 that helped extend the 
renourishment project for Carolina Beach and vicinity, which, 
as you know, falls in my district. My constituents and I are 
very thankful to you for that.
    General Bostick, a couple of questions for you. You know, 
one part of the bill that you--or the law that you have not 
written the rules for yet is section 1038. And, of course, 
regional sediment management is very important to my district 
as protecting and renourishing our beaches gets more and more 
costly.
    The question is, what is the timeline, and how will you go 
about implementing section 1038 so that we can reduce or avoid 
future FEMA cost as well as cost of beach renourishment?
    General Bostick. Sir, I am going to have to come back to 
you on that. I am not currently tracking where we're at on 
1038.
    I am being told it is under development.
    Mr. Rouzer. Do you have any idea of the timeline?
    General Bostick. We will follow up with you, Congressman.
    Mr. Rouzer. OK. I want to follow up as well on your answer 
to a previous question dealing with section 2008 of the water 
bill, specifically that Atlantic Intercostal Waterway. You 
mentioned lack of funding. And I recognize that you can't save 
the world if you can't pay the rent. But my question is, isn't 
there some employee within the agency that can do that review? 
Is more funding really necessary for that?
    General Bostick. The Corps is a very unique organization, 
and we have got great employees that bend over backwards every 
day. And something that is unique about us is that we are 
project funded. Every 15 minutes, they are doing billable 
hours. So each bit of work they are doing is tied to a project, 
and they are very closely managing that work.
    So, if there was an extra hour in the day and extra funds 
for them to do that, then I am sure that they would execute it. 
I just need to see where, from the district's perspective, this 
stands and where it stands in terms of where it would be 
completed in the future. But I can assure you, if there were a 
possible way, there was one extra person that could do the 
work, they would do it. But given the constraints on how we 
operate, they have to set their priorities of work and base 
that on the project-funded needs that they have.
    Mr. Rouzer. Let me ask this: Is there a possibility of an 
interagency transfer where you have excess money focused in on 
one project but you can transfer it to this?
    General Bostick. I am not sure I'm following the question. 
You are saying money from another agency that might come----
    Mr. Rouzer. Well, no. No. Within your agency. Money 
specified for a project that could be transferred.
    General Bostick. So a reprogramming.
    Mr. Rouzer. Yes sir, if that is what you want to call it.
    General Bostick. I am not sure.
    That is possible. We could take a look at it.
    Mr. Rouzer. My last question, since I have 1 minute and 23 
seconds left. We are at the 1-year anniversary of the bill, and 
perhaps this question has been asked before, but I was not here 
to hear the answer.
    Only 40 percent of the rule has been implemented or 
promulgated. Why only 40 percent?
    General Bostick. Part of the challenge with our start in 
this case is that we thought it was very important to go out to 
the American public and conduct listening sessions, not only 
with the local public, but businesses and interested parties, 
so that they could talk about WRRDA and talk about their 
concerns. So that got us off to a slow start in terms of where 
we would normally have started.
    The other thing is that this WRRDA is far different from 
the previous WRDA, which is focused on projects and we could 
move quickly. This is really process and policy and taking time 
to get that right. Although, we are only at about 38 percent, 
we think by the end of the year, we will be at 50 percent, and 
at the end of 2 years, as we are required, we will have much of 
this accomplished.
    Mr. Rouzer. Well, the end of the year we will start writing 
another bill for next year. And is there anything that we need 
to take into consideration to help make this process a little 
bit easier?
    General Bostick. There are some issues that we are finding. 
There are small issues that I think we need to come back to the 
Congress and to the administration to sort out the way ahead, 
but all of that is working at this time. So if there are things 
that we will need, we will be sure to work with the Members and 
their staffs to ask for the appropriate support.
    Mr. Rouzer. Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Graves, you are recognized.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Secretary Darcy, General Bostick, and General Peabody, we 
appreciate you being here today.
    Section 7007 of the WRDA 2007 bill provided a crediting 
provision for the Louisiana Coastal Area, and section 1019 of 
WRRDA 2014 provides some additional clarification there.
    Could you give an update on where we are in regard to that 
crediting?
    Ms. Darcy. On that particular section of the WRRDA bill 
from 2014, implementation guidance is complete. And is your 
question----
    Mr. Graves of Louisiana. I am aware that the State of 
Louisiana has probably in excess of $100 million in credit, as 
you know. There is a section that was in the original 7007 that 
was also modified and included in the 1019 section of the bill 
last year that allows for cross-crediting. As a matter of fact, 
right now, the Corps of Engineers is demanding the State of 
Louisiana put forth, I believe it is, $1.7 million in cost 
share for one project, while the State has well over $100 
million in existing credits before the Corps of Engineers. And 
the Corps has actually referred--the Corps has actually 
referred that $1.7 million cost share to the Department of the 
Treasury for collections.
    You have also shut down any potential grants to the State 
of Louisiana through these same agencies, because you are 
telling the State they need to pay you $1.7 million when, 
again, there is over $100 million in credits that are 
outstanding right now.
    Ms. Darcy. I am going to try and answer this question, and 
I may defer to General Peabody, who may have some more 
specifics on it. But it is my understanding that the provision 
for credits requires an in-kind memorandum of understanding 
before the construction in order to be credited for that work. 
And in some of the cases that you are referring to, there was 
no in-advance memorandum of understanding between the Federal 
Government and the local sponsor.
    Mr. Graves of Louisiana. That is correct. And that is 
because section 7007 of WRDA 2007 explicitly stated that the 
credit was granted for work prior to the execution of a 
partnership agreement. It didn't make any reference at all to 
any type of MOU [memorandum of understanding]. The State of 
Louisiana was concerned that, actually, if they executed any 
type of agreement, it would invalidate the ability of them to 
get credit because there would be an agreement in place.
    Ms. Darcy. I am going to ask General Peabody, who was----
    Mr. Graves of Louisiana. And, just to clarify, General 
Peabody, I know you are aware of this, the section 1019 of 
WRRDA 2014 actually expanded, where it said: on the date of 
execution, before the date of execution, or after the date of 
execution.
    General Peabody. Yes, sir. Thank you, Congressman.
    Thank you, ma'am.
    So both sections you referred to, section 7007 of WRDA 2007 
and section 1019 of WRRDA 2014, also make reference to section 
221 of the Flood Control Act of 1970, and there is very 
explicit statutory language in that provision that requires a 
memorandum of understanding before crediting can be granted. I 
have had conversations with you in our previous jobs on this 
issue. We just talked with Mr. Graham from the CPRA [Louisiana 
Coastal Protection and Restoration Authority] last week, and we 
are in the process of working closely with him to get 
memorandums of understanding signed so that we can work with 
the State and provide the crediting that we both would like to 
be able to enable.
    Mr. Graves of Louisiana. And, General, I understand the 
attempt to interface section 221 in this case, but as you have 
stated in numerous occasions, and Corps counsel has stated, in 
fact, I believe WRDA 2007 actually makes the same reference in 
section--in the amendments to section 221, it specifically 
says: If there is another more specific provision of law, that 
one shall apply. And in this case, section 7007 was a more 
specific provision of law.
    The Corps has attempted to go through and cherry-pick 
certain provisions of 221, certain provisions of 7007 and apply 
those.
    Let me ask you this: If you agreed with my interpretation 
and what I believe is congressional intent that the credit was 
afforded for work that was done prior to signing an MOU, MOA 
[memorandum of agreement] partnership agreement, or anything 
else, would the Corps be required to accept the credit proposal 
submitted by the State? Meaning, if the State came in and said, 
here is $100 million worth of credit that we believe we have, 
would you be required to accept that $100 million?
    General Peabody. I think the key point is that the 
fundamental area where we don't see eye to eye is having an MOU 
prior to----
    Mr. Graves of Louisiana. Could you just answer that 
question, though? Would you be required to accept the $100 
million in credit proposal that the State submitted to the 
Corps?
    General Peabody. Congressman, I am not going to go into 
hypotheticals on something that----
    Mr. Graves of Louisiana. I can answer that. No. You still 
have the ability to review the credit that the State submits to 
determine if it is actually integral to the project or not.
    General Peabody. We need an integral determination to do 
that, Congressman. I think the dilemma that the Corps has is 
that we can't take any particular statutory provision in 
isolation from other provisions of the law. That is one thing 
that often frustrates some of the Members of Congress, because 
we really do need to look at all provisions of the law.
    I would be happy to come visit with you on this, 
Congressman, and discuss the specific provisions of the 1970 
Flood Control Act that you discussed. And we want to work very 
positively and cooperatively with the State to do this, but we 
also feel obligated to follow the law as we understand it.
    Mr. Gibbs. Mr. Babin.
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman.
    This is for Secretary Darcy. Last Friday--excuse me--I was 
at the Port of Houston in my 36th Congressional District of 
Texas along with several other Members of Congress, the chair, 
and the cochair of the Congressional PORTS [Ports Opportunity, 
Renewal, Trade, and Security] Caucus, Representative Poe and 
Representative Hahn from California, we got the latest briefing 
on a number of issues, including a very serious safety issue, 
and I believe I mentioned this the last time you were here 
before our committee. As you know, the Port of Houston and the 
Houston Ship Channel is one the busiest, if not the busiest, 
port in the Nation at the time.
    We have 8,300 ship calls annually at the port, more than 
any other port in the Nation. Additionally, there are 22,000 
deep-draft vessel moves within the channel and another 200,000 
barge moves every year. The economic impact of a shutdown at 
the Port of Houston is estimated to cost the economy more than 
$300 million per day. A 3-day shutdown is a $1 billion hit to 
our national economy.
    In fact, we had this happen earlier this year, just north 
of what we call the Bayport Flare and the Houston Ship Channel. 
There are very serious safety issues right now within the 
Houston Ship Channel at the Bayport Flare. This is due to a 
design deficiency in the flare design which needs widening and 
enlarging. The Corps must address this issue in a timely 
manner. It is penny-wise and pound-foolish for us to not 
address this critical safety issue that is present right now in 
the Houston Ship Channel.
    If there were an accident here at the Bayport Flare, 
itself, a shutdown would impact $300 million a day, as I said, 
to our national economy. And we cannot allow this to happen.
    It is my understanding that it would cost $36 million to 
address this safety issue, which would be cost-shared between 
the Corps and the Port of Houston Authority.
    Again, I brought this up at our last meeting. Following our 
last hearing, your staff was responsive and indicated that 
there is a 902 limit construction that cannot be exceeded. 
However, we have a serious safety issue. Given the significant 
risk to the ships traveling within the channel and to our 
national economy should there be an accident, I would ask that 
you sit down, again, with your team and think outside of the 
box--but, of course, within the law--to find a way to address 
this in a more timely manner because nothing has been done 
since.
    Every day there is a risk at the flare, which could be 
addressed at a fraction of the cost. Any comments there?
    Madam Secretary.
    Ms. Darcy. I recall our discussion here on this issue, and 
we have since determined that a project deficiency report is 
what is needed in order for us to see what the causes were of 
this deficiency. And we are on track. We have initiated that 
project deficiency report, and we should have that by the first 
of the year.
    Dr. Babin. So another 6 months to go, then, huh?
    Ms. Darcy. Yes, sir.
    Dr. Babin. Also, one other issue.
    In the north end of my district, southeast Texas, at the 
Sam Rayburn Reservoir, there is a major effort underway by the 
Army Corps of Engineers to develop a revised master plan, which 
is way overdue.
    I have been told that a number of restrictions are already 
being imposed on people's property in the area surrounding the 
lake. Some folks, some individuals, have been told that they 
cannot cut down weeds or brush even on their own property.
    And I will be following up with questions for the record on 
the specifics of the Sam Rayburn Reservoir issue and offering a 
personal invitation to you and your team to tour this site and 
hear firsthand from the community and from Members, individuals 
there.
    But, speaking generally, isn't it somewhat inevitable that 
by posing the waters of the United States rule and designating 
that even more of the United States U.S. waters are navigable 
streams, navigable waterways, that property owners across the 
State of Texas and the country will see more, not less, of this 
sort of restriction being imposed by the Federal Government on 
private property owners?
    Ms. Darcy. Congressman, the Sam Rayburn specific example is 
one that we will follow up with you on. But as far as the 
expansion of Clean Water Act jurisdiction, I don't believe that 
the finalization of this rule is going to add to or jeopardize 
private property owners' rights in the water.
    Dr. Babin. Well, if they are already being restricted from 
cutting brush on their property because of this imposition, I 
think it is already a problem. So we would like--we would like 
to see some addressing of that, if you don't mind.
    And, also, one other thing, if we can get that report 
before 6 months. We have a safety issue at the Bayport Flare 
and the Houston Ship Channel.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Sanford.
    Mr. Sanford. Thank you, gentlemen.
    A couple of quick questions. First, on Charleston Harbor. 
The Civil Works Review Board for the Charleston Harbor Post 45 
project. I guess the due date is June 25. Are we on schedule to 
hit that date?
    Ms. Darcy. Yes, sir.
    Mr. Sanford. We are.
    I guess the second part post June 25 would be if the 404 is 
done, Chief's Report is done, are we at a point where they 
could begin to move forward with regard to construction?
    Ms. Darcy. With what? With construction?
    The project has to be authorized. Once the Civil Works 
Review Board meets, then it goes into----
    Mr. Sanford. I thought there was a provision, if those 
chief pieces, or those important pieces, if you will, 
foundation pieces, were in place, then--I will come back to the 
team with regard to some language on that front. So that is the 
first question.
    Two, I want to give you a compliment. One thing, oddly 
enough, that is important within my district are old impounded 
rice fields. And they are sort of weird creatures, and they 
don't fall into any category. I mean, literally, the trunks 
that go on them come from the time of the Egyptians and 
controlling water level. And you could set a flap one way and 
you could literally grow pine trees in there and have it aired 
and dried. You could set a flap another way and have it 
watered.
    And, apparently, you guys at the district level have been 
most responsive to some of the landowners down that way with 
regard to easing some of the regulatory nuance and nuisance 
that goes with controlling these wetlands--again, nonwetlands 
wetlands, whatever you want to call them--and I want to say 
thank you.
    Third, you just mentioned, Secretary, that there would be 
no further restriction with regard to private property rights 
in the event that the new waters go--the ruling goes into 
effect. I don't know how you would say that, given the fact 
that if you are not--if you have land that is not within 
jurisdictional control of the Corps presently but with the new 
map, it would be, how would that not be taking of private 
property rights?
    Ms. Darcy. The new rule will give more certainty to what is 
jurisdictional under the Clean Water Act and what is not. And I 
don't envision----
    Mr. Sanford. Yeah. It might give more certainty, but it 
would be expanded in view of certainty.
    In other words, if you look at the maps presently, there 
would be land that would be controlled by a private landowner. 
And if you look at the new map, at least as I have seen them, 
there would be much more jurisdictional control by the Corps.
    So, yes, there is certainty, but what the certainty that we 
know would be, yeah, there would be more control in whether to 
cut weeds or doing a whole host of different things on what is 
presently land controlled by the private sector rather than the 
Government sector.
    Ms. Darcy. Under the rule, if there is a significant nexus 
that can be determined between the water on a person's property 
and a navigable water that is attributed to a tributary and 
connects to another water, and if there is an activity that is 
requested by a landowner, that will determine whether it is a 
jurisdictional water and whether, indeed, a permit for that 
activity is needed.
    Mr. Sanford. Hearing you but not agreeing with you. I think 
it is the most legalistic of stretches to define navigable 
water as an intermittent stream that might flood once every 
couple of years. I don't know how that could be possibly 
construed as navigable.
    I have done a lot of time on the water over the years and 
navigable with a boat is not a place where we go where it 
happens to flood once every, you know, 5 years. But we will 
come back to that.
    Last question would be this: If you were to look at the 
three--I guess this is for the general--most onerous mandates--
in other words, you think that you could do much more with, 
perhaps, less--what would they be from the standpoint of 
Congress?
    General Bostick. That would be a difficult one to answer. 
One of the things I think that the country needs to do is to 
think through how we sort out priorities.
    We are, I think, the world's best at responding to 
disasters. And when there is a disaster, the country pulls 
together, we fund, and we do things like we did post-Katrina 
and post-Sandy.
    Mr. Sanford. I have 15 seconds, so I am going to ask for 
brevity. I apologize. So one would be what?
    General Bostick. So one would be how we set priorities 
across the Nation.
    Mr. Sanford. I don't know that that is a mandate or 
onerous. But, OK. What is two and three?
    General Bostick. And I think part of what WRRDA does is how 
we work better in the interagency area, so that the goals and 
objectives of one agency in a certain watershed, let's say, are 
similar and seen in the same light from the Federal Government.
    Mr. Sanford. General, I would respectfully submit that you 
maybe are going to pass on this question. I get it. And I guess 
I have burned through my time.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Thank you, sir.
    Mr. Rokita.
    Mr. Rokita. I thank the chairman.
    Would the gentleman let me yield a minute to continue on 
with your questioning?
    Mr. Sanford. I don't want to torture my poor colleague 
there behind the witness stand.
    Mr. Rokita. OK.
    Go ahead.
    General Bostick. One of the other things I would say, 
Congressman, is reporting. When you look at the number of 
reports that we provide, I think we could look at that and see 
if there is redundancy and overlap, and could we reduce the 
amount of reporting and hold folks accountable for their 
responsibilities?
    Mr. Rokita. I thank you for that.
    I appreciate everyone's testimony this morning.
    I am interested in the Harbor Maintenance Trust Fund. How 
much money is in there right now?
    General Bostick. It is about $8 billion.
    Mr. Rokita. $8 billion.
    How is the Corps working to comply with the trust fund, 
given our intent to spend more in this area? And are we going 
to see the fiscal year 2017 budget reflect an increase in 
spending?
    Ms. Darcy. Congressman, in response to the provisions for 
the Harbor Maintenance Trust Fund spending, there were two 
provisions: One for emerging harbors and one for Great Lakes. 
Congressman DeFazio mentioned the 10 percent earlier.
    In both our FY 2015 workplan and in the 2016 budget, we 
complied with that requirement providing both 10 percent in one 
instance and 12 percent in another.
    Mr. Rokita. So you feel you've obliged Congress' intent?
    Ms. Darcy. Yes.
    Mr. Rokita. And in the fiscal year 2017, what are the 
plans?
    Ms. Darcy. The 2017 budget is still under development, and 
we will----
    Mr. Rokita. Would you plan on spending even more money in 
2017 fiscal year?
    Ms. Darcy. I think within the budget caps that we get, we 
will look to see where is the biggest need.
    Mr. Rokita. Well, you can spend less in other areas, right, 
and still comply with the budget caps?
    Ms. Darcy. We can't----
    Mr. Rokita. Spend more on harbor maintenance, correct?
    Ms. Darcy. Given the overall program cap.
    Mr. Rokita. Inland Waterways Trust Fund, the barge industry 
has, as you know, had a 9-percent increase in their diesel tax 
due to the ABLE Act. Did the President's most recent budget 
fully account for the increased revenue attributable to the 
user-fee increase?
    Ms. Darcy. The anticipated increase from the user fee was 
between $30 million and $35 million, and I believe we did. That 
is anticipated for the 2017 budget as well.
    Mr. Rokita. So the President matched that in his budget, is 
that what you are saying?
    Ms. Darcy. No. Because what comes from the Inland Waterways 
Trust Fund has to be matched from General Treasury.
    Mr. Rokita. Inland Waterways Trust Fund?
    MS. Darcy. Yes.
    Mr. Rokita. Right. Right. So it seems like the President's 
budget may have lowballed the revenue compared to industry 
estimates. Do you agree or disagree? And even if the 
estimates--and even the estimates to the Appropriations 
Committee, I guess--like the last question, what I am getting 
to is, why is the President lowballing the spending estimate 
when we could be spending more on infrastructure?
    General Bostick. I think part of what really----
    Mr. Rokita. General.
    General Bostick [continuing]. Is here, the dynamics is what 
happened with Olmsted. When the Congress decided the cost share 
for Olmsted would go from 50/50 to 85/15, that caused more 
money to be available in the Inland Waterways Trust Fund. We 
believe that money is going to be needed in the future, and we 
certainly are working with the Inland Waterways Users Board to 
project what the requirements are going to be.
    So we believe the ABLE Act money, the tax there, and the 
additional money not being used in Olmsted will be put to good 
use in future years.
    Mr. Rokita. What is your definition of ``future''?
    General Bostick. The immediate future.
    Mr. Rokita. Future is now?
    General Bostick. Right. We were in immediate transition, I 
think, this year.
    Mr. Rokita. Mr. Peabody, do you have anything to add?
    General Peabody. I think the Chief has pretty much got it 
right. The two things that happened were the additional 9 
cents, but also the Olmsted cost-share change, which is 
temporary. When we finish or substantially complete Olmsted in 
the next, probably, 4 to 5 years, then the additional funding, 
whatever has accrued above what we have not allocated on an 
annual basis, I think that will get bought down fairly quickly.
    We are working through several different funding scenarios, 
and of course, we fund on an annual basis, so it is very 
difficult to predict how those funding scenarios will play out. 
But the key is that there are four major projects under 
construction, and there are others that we could do some work 
on, those will quickly consume that additional revenue once 
Olmsted is complete.
    Mr. Rokita. I yield.
    Mr. Gibbs. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    Thank you, Secretary Darcy, General Bostick.
    General Peabody, I didn't think I would get a chance to sit 
here with you again.
    Welcome back.
    And if I don't see you again after this, after my 5 minutes 
is up, good luck.
    General Peabody. I am going to come see you tomorrow, sir.
    Mr. Davis. Oh, lucky you.
    General Peabody. No, sir. Lucky you.
    Mr. Davis. You are a glutton for punishment, man.
    Hey, General, thank you. I can't wait to see you tomorrow, 
and I do wish you well in your impending retirement.
    This 1-year anniversary, I am glad to be here today to talk 
about it. However, the most important anniversary today is my 
wife and I's 20th, so I hope she has a very happy anniversary. 
Because I want to see some more progress on the anniversary of 
WRRDA. This is what frustrates somebody like me, who used to 
work on these issues as a staffer. And I enjoy having all of 
you come in front of our committee and meeting individually to 
talk about issues that are important to my district, our 
waterways, our water infrastructure, but it just seems like we 
have so many questions that just don't get answered or there is 
just--it just takes so long. I know that might be 
institutional, but I think we are all here to fix that. And we 
want to make sure that the Corps is a willing partner to do 
that.
    I included, along with my colleague, Congresswoman Bustos, 
a provision in WRRDA for 15 P3 projects. I know my colleague, 
Mr. Webster, asked about these earlier, and I think the 
response was this is a tough one and you still have a long way 
to go.
    I don't find that acceptable as a person who wrote the 
language. What is so tough and hard about us trying to put new 
and innovative approaches towards fixing our water 
infrastructure projects?
    So, Secretary Darcy, can you give me a timeline as to when 
we can start to see at least 1 of these 15 projects moving 
forward? I will take them all in the 13th District of Illinois 
if you would like.
    Ms. Darcy. Congressman, I think that some of the projects 
that we mentioned earlier, as far as a P3 approach, are further 
along than others. It is my hope that we will be able to get at 
least one of these P3 demonstrations before the year is out. 
And hopefully we can build on the experience from that to work 
towards others and the goal of the 15 that was in the WRRDA 
bill.
    Mr. Davis. We just put that in as a new approach. We want 
to see investment in water infrastructure. That is why WRRDA is 
so crucial.
    I have--I have my constituents who rely upon the inland 
waterway system come to my office. At first, when I got here a 
little over 2\1/2\ years ago, they said: You are not going to 
be able to pass WRRDA without earmarks. Well, we did. And we 
actually changed policies, which I think make it easier for the 
Corps, I hope, to work with us to implement our changes.
    And then when we passed those policies, they said: Well, 
you will never be able to find a source to ensure that the 
Inland Waterway Trust Fund and harbor is fully funded. Well, we 
did. We, as an organization, as Congress, we did our job. And 
now those same individuals come in and say: What are you going 
to do to ensure that that surplus is not used for other 
purposes?
    Well, it is a novel idea, I tell them. Let's get these 
projects moving forward. It has been way too long. You have so 
many good people working for you at the Corps of Engineers. If 
there is something we need to do to be able to help expedite 
this, let us know, but we can't continue to just have hearings 
like this with promises of maybe 1 of 15 P3s will be 
implemented by the end of the year. We authorized 15. We didn't 
authorize one. I want people to be able to walk and chew gum at 
the same time because we are asked to do that on a regular 
basis. And I think the Corps of Engineers should be able to do 
that too.
    Now, I want to end with a thank you. I do want to thank the 
Corps of Engineers, especially in and around the St. Louis and 
Rock Island Districts, for working with the Sny Levee Drainage 
District, work out a problem with the flood level certification 
discrepancy with FEMA. And that is something that I do 
appreciate, the men and women who work out in the district 
offices on the ground are providing that great service.
    So I got a bunch of other questions, but I don't have a lot 
of time. So I am going to leave you by saying: Thanks for your 
service. Thanks for being here. My frustration is not going to 
be alleviated until we start to see progress.
    And, General Peabody, again, congratulations on your 
requirement. And I will give you the rest of the questions 
tomorrow.
    I yield back.
    Mr. Gibbs. Thank you.
    We will start a second round of questions.
    Secretary Darcy, did you receive a memorandum with 
enclosures, dated approximately April 27, of this year from 
General Peabody, which communicated serious concerns and 
deficiencies with the so-called Clean Water Rule and the 
rulemaking process for the rule?
    Ms. Darcy. Yes, I did.
    Mr. Gibbs. Can you please provide me a copy of that and for 
the hearing record and all the memo and the enclosures?
    Ms. Darcy. I will have to check with counsel, sir.
    Mr. Gibbs. Pardon?
    Ms. Darcy. I will have to check with my counsel.
    Mr. Gibbs. So you think there is some concern about 
providing the committee with that? That should be, you know, an 
open, transparent--it is an internal document, but I think 
everything is open to this committee.
    Ms. Darcy. I will be happy to provide it on the advice of 
counsel.
    Mr. Gibbs. OK.
    Let me ask you, then, that memorandum that you received 
from General Peabody, what steps did you take? Did you hold 
meetings? Did you respond to--the Corps had some serious 
concerns about the process of the Clean Water Rule and what is 
in the Clean Water Rule.
    Ms. Darcy. We took those concerns and talked through them 
with the Environmental Protection Agency before finalizing the 
rule.
    Mr. Gibbs. You took those to the----
    Ms. Darcy. We did.
    Mr. Gibbs. To who?
    Ms. Darcy. Our colleagues at the Environmental Protection 
Agency because we were jointly developing this rule.
    Mr. Gibbs. And OMB, were they involved in this?
    Ms. Darcy. That was not shared with OMB to my knowledge.
    Mr. Gibbs. OK. Ms. Darcy, WRRDA 2014, specifically sections 
1007 and 1008, allows for the expedited considerations for 
reviewing and processing applications from non-Federal entities 
to modify and improve hydropower and all eligible Federal water 
resource projects. Why has implementation of this section been 
delayed, and has any non-Federal interest approached the Corps 
to pursue an activity under the new 408 requirements?
    Ms. Darcy. As far as section 1007 goes, that is the one I 
am waiting for the delegation authority from the Secretary of 
the Army, but that is ready to go. I referenced this earlier to 
Congressman Shuster that it was imminent. And, to my knowledge, 
we have not had a request yet from a utility or hydropower 
person to use that sort of 214 provision. But I can double 
check with them. But last I heard, we had not had any requests.
    Mr. Gibbs. But you are moving forward with implementation?
    Ms. Darcy. Yes, sir.
    Mr. Gibbs. OK.
    General Bostick, you stated in multiple hearings that we 
have, you know, $18 billion list of old, inactive projects that 
deauthorize by September 2015. Is this an interim list or a 
final list of projects that will be--come forward by this 
September?
    General Bostick. September is the interim list, which is 
the all-inclusive list of what we might want to deauthorize. 
Then we will come back to the Congress in about April with the 
$18 billion list----
    Mr. Gibbs. Final list of April next year?
    General Bostick. Final list.
    Mr. Gibbs. OK. Thank you.
    General Bostick, section 1023 allows for a non-Federal 
interest to contribute funds to the projects that go over the 
cost limit. Have any projects to date taken advantage of this, 
and how many projects do you expect to exceed the cost limit 
before the end of 2016?
    General Bostick. This is 1014?
    General Peabody. 1023.
    General Bostick. Chairman, can you say again which section 
you are----
    Mr. Gibbs. Section 1023 that allows for a non-Federal 
interest to contribute funds when the project goes over the 
cost limit, has anybody taken advantage of this, and then also, 
do you expect any--how many projects do you expect to exceed 
that cost limit by the end of next year?
    General Bostick. OK. Since 2012----
    Mr. Gibbs. How many is 902 fixes?
    General Bostick. Forty-seven.
    Mr. Gibbs. Pardon?
    General Bostick. Forty-seven agreements since 2012, and it 
has been about $105 million.
    General Peabody. Sir, because of the additional 
streamlining that your provision allowed, we just recently 
published guidance for this. We anticipate seeing an 
acceleration in the number and quantity, assuming that there 
are cost-share partners who are willing to come to us with 
contributed funds.
    Mr. Gibbs. So----
    General Peabody. But we do not have a projection on how 
that is going to change. We are going to need some time and 
experience to see how this actually plays out before we will--
--
    Mr. Gibbs. How many 902 fixes do you anticipate?
    General Peabody. How many what, sir?
    Mr. Gibbs. How many 902 fixes do you anticipate?
    General Peabody. Sir, I am going to have to get back to you 
on that.
    Mr. Gibbs. OK. And my first part of that question, have we 
had any non-Federal interest contribute funds over the cost 
limit?
    General Peabody. I am not aware of any, sir, but I will 
check with the staff.
    Mr. Gibbs. OK. I appreciate that.
    Last question here, Secretary Darcy, dealing with WIFIA. 
The Corps stated that they are not developing WIFIA 
implementation guidance and instead are developing a 
feasibility analysis to determine whether a WIFIA program could 
be effectively developed and implemented if funded. The EPA, as 
you may know, is actively developing its implementation 
guidance. Is the Corps consulting with the EPA regarding WIFIA 
development?
    Ms. Darcy. Yes, we are.
    Mr. Gibbs. Is the Corps consulting with other agencies to 
have loan and guarantee programs like the Department of 
Transportation?
    Ms. Darcy. Yes, sir.
    Mr. Gibbs. What does the feasibility analysis need to 
determine in order for the Corps to issue an implementation 
guidance? What are you looking for in the feasibility analysis? 
What do you need to determine to get to that implementation 
guidance? Because we are clear on the law. We want to move 
forward with WIFIA, and we are looking for the implementation 
guidance. What is the issue? What is the challenge here for 
you?
    General Bostick. Looking at the potential benefits, as they 
would apply specifically to the Civil Works projects, and 
looking at what would actually be eligible. So there are some 
details that we are looking at in terms of the potential 
benefits to Civil Works specifically. But we have been working 
very closely with EPA and others that have experience with 
this.
    And as we have said before, we are searching for 
alternative financing methods. This is one of those that we 
believe can help, but we are just not as experienced in it, so 
we are aggressively pursuing it.
    Mr. Gibbs. Well, I am a big advocate for this. I think you 
are correct, this is a great way to bring some private capital. 
And, you know, I would encourage the Corps to consult with 
these entities, like the Department of Transportation, that has 
had experience, and the EPA. And if you have to bring in 
outside people, I think, you know--which serves as a good 
program; we could move forward because if we don't get it off 
the ground, you know, as a pilot, we are going to have some 
challenges.
    Mrs. Napolitano, do you have any questions? Go ahead.
    Mrs. Napolitano. Of course. Thank you so very much.
    I will have to make this real short, but I do have a 
question, Ms. Darcy.
    On page 8 of your report, ``Water Supply and Reservoir 
Management,'' it refers to subsection (a) of 1046. It refers to 
arid regions. I am looking at the Public Law, but the second 
section of that--because that was under A, dam optimization--
section B, updated report: Not later than 2 years after the 
date of enactment of this act, Secretary shall update and make 
publicly available the report entitled ``Authorized and 
Operating Purposes of the Corps Engineers Reservoirs,'' dated 
July 1992.
    Now, that was--which was produced pursuant to section 311 
of the Water Resources Development Act of 1990. And in the 
inclusions, there are--any recommendations of the Secretary 
relating to that review the Secretary determines to be 
significant, and it goes on. That component directs the Corps 
to update its report, which is 23 years old on this particular 
area.
    It is of significant importance to the country, mostly the 
West, as we look to the drought and to whether we can maximize 
water storage and aquifer recharge in light of the authorized 
purpose authorized in 2014.
    Now, are you expecting to meet that date, and can we figure 
out how we can get information so that we are able, then, to 
either assist or formulate policy to help you along those 
areas?
    Ms. Darcy. For 1046A, I thought we were in progress on that 
one, but I apologize, I am going to have to get----
    General Bostick. We are.
    Ms. Darcy. We are in progress.
    General Bostick. Implementation guidance is under 
development.
    Ms. Darcy. The implementation guidance for that section is 
under development. But I think your question, too, is how we 
can communicate more closely with you as we develop this report 
that is necessary. I think that we should commit----
    Mrs. Napolitano. Well, you have 1 more year to go on that 
report.
    Ms. Darcy. Yes.
    Mrs. Napolitano. And what I am asking is, is there any way 
to be able to know whether you are going to be able to meet 
that deadline?
    Ms. Darcy. We will make every effort to do so.
    Mrs. Napolitano. I am sorry?
    Ms. Darcy. We will make every effort to do so.
    Mrs. Napolitano. Well, may we be kept up to date? Because 
we would like to be able to help, whether it is a funding issue 
or whether it is an issue of anything that might help.
    It is critical. It is important, given the drought cycle 
that we are experiencing, and the fact that we are going to be 
needing all the help we can get.
    So insofar as that 23-year-old report, I think it is time 
that we did give it some significant review.
    Ms. Darcy. We will.
    Mrs. Napolitano. With that, Mr. Chair, I yield back.
    Mr. Gibbs. Mr. Rice, your floor.
    Mr. Rice. Thank you to the panel for being here. Always 
instructive to hear from the Corps.
    I haven't been in politics all that long, I guess 4 years 
now between county council and now Congress. And I am concerned 
that any project that requires Corps approval in my district 
seems to--it never seems to happen without a great deal of 
intervention. It seems the Corps has become an entity that 
obstructs rather than promotes these projects.
    I heard Mr. Peabody's discussion earlier about how the 
country has forgotten the importance of infrastructure and its 
effect on natural resources and commerce and the economy and so 
forth. I don't think that is true. I think that, at least in my 
district back home, that we are--we are struggling and gnashing 
our teeth and pulling our hair trying to get projects done, and 
that the Corps plays more of a role of obstruction than 
anything else. And it is incredibly frustrating and concerning 
to me.
    Highway 31, when I was on county council, and held up for 2 
years and finally when I got to Congress and started meeting 
with people at the Corps, and I am sorry, I only have 5 
minutes, I can't even list all these things and let you respond 
adequately in the 5 minutes I have.
    But it was held up for years because they shortened the 
road by 2 miles and expanded an intersection, and they 
required, you know, years' worth of surveys and a lot of money 
being spent. While we had the money in the bank to build the 
road and employ people in the worst time in our economy, and 
yet it was held up for years by requirements placed on us by 
the Corps because an environmental group wrote a letter.
    Bucksport marine industrial park, which is pending right 
now, been working on a permit for that for about 4 years now. 
There is an existing commercial marina there, and they want to 
expand it, and yet it takes 4 years of permitting time. And we 
have just heard back from the Corps that they think they have 
changed the scope of the project, which was requested by the 
Corps, and now the Corps thinks that change in scope, wants 
them to go back to ground zero and start again.
    International Drive, in my home county of Horry County, 
they have been working on permitting this road for years and 
years and years. Again, an environmental group wrote a letter 
to the Corps, and they have held back the permit now for an 
unstated reason and for an unstated period of time.
    The Georgetown Port, I know Secretary Darcy in particular 
has been very helpful in trying to get the port dredged. And 
Chairman Shuster mentioned it earlier. When I became a 
congressman, I went to the Corps and asked them what we needed 
to do to get it dredged. They told me that we need to go and 
find $33 million, and we could get it done. And we found the 
money, with Secretary Darcy's help. And then they came back and 
said, ``Oops, no, we were wrong. It is not $33 million; it is 
$67 million.'' And so then I have to go back to my constituents 
at home and explain to them while when they voted themselves a 
penny sales tax on a referendum to have this port dredged, 
that, oops, no, we were wrong. The actual cost is double what 
they told us it was going to be.
    And then on I-73, you know, we have a road that part of it 
is built--been built by my home county, 18 miles getting as 
close to the border of the county as they can out toward I-95. 
We need 41 more miles to connect to 95 and then on past it to 
the North Carolina border, I-74, they say we are going to 
destroy 278 acres of wetlands on that stretch of road. And to 
mitigate for that, they are proposing that we--the Corps is 
pushing a plan that proposes we buy 6,800 acres to mitigate 278 
acres at a cost of $20 million. And the level of absurdity here 
is just mind-boggling. We have been working on that permit, I 
don't know, 5-plus years, and we are still, apparently, years 
away.
    And it appears to me that the Corps function has become to 
respond to these environmental groups on general, unfounded 
allegations and to hold--stifle progress on every front, and it 
is credibly frustrating. At a time when the economy is 
dragging, and we could be putting people to work, and we have 
the money here ready for three out of four of these projects, 
ready to build. It is not like we have to find financing. It is 
just that we have to jump through 4,000 flaming hoops in front 
of us.
    So here is my question. I am sorry it took me so long to 
get to it. Please help me to unwind this labyrinth. Please 
help. Please give me recommendations to make your job easier or 
to limit, reasonably, the scope of people of interest that have 
a bite at the apple of holding these things up or the number of 
bites at the apple that they have. Because the place that we 
have got ourselves--and I don't know who put us here. I don't 
know if you guys put us here in the Corps, or if the Congress 
put us here, but where we are is in a very bad place. And we 
are stifling progress, and we are keeping people out of work, 
and we are holding back our economy. And we desperately need to 
unwind this labyrinth. Thank you very much.
    Mr. Gibbs. Ms. Frankel.
    Ms. Frankel. Thank you very much.
    You have a very challenging, complicated task. I have a 
general question, which is, why do you change the district 
commanders every 3 years?
    General Bostick. It is a great question. Part of this is we 
are developing our officers, our senior leaders. In most 
commands, those officers change every 2 years. And we have come 
back, in working with the chief staff of the Army, Secretary of 
the Army in these districts, except for the young lieutenant 
colonels, the colonels are there for 3 years. And there are 
other assignments that they have to go on and help serve the 
Nation in order for them to continue to move on and get their 
own experience.
    What we rely on is great civilians to help execute and 
provide that continuity. So while the Corps is 34,000 strong, 
only 700 are military. And many of those are commanders and 
deputy commanders, but they have great civilians that are 
helping to run the organization. But it is mainly on their 
leader development.
    Ms. Frankel. Have you ever considered a different way to do 
it?
    General Bostick. I am not sure if my predecessors have.
    I have looked at different options of actually moving some 
earlier, if, for example, they don't have joint experience, and 
they need joint experience, they haven't deployed, and we need 
to get them serviced in a deployed environment or on major 
staff. Some have extended, but not many have gone longer.
    We do take a couple of commanders that have a lot of 
experience and put them in a second command. But, generally, we 
would not go beyond the 3 years. I have not thought about doing 
that, primarily for the reasons I have stated before.
    Ms. Frankel. So I think what you are saying is that the 
main purpose of these district commanders are to--is for their 
own personal development and their career, which means, really, 
that I guess, your civilian force is running the operation.
    General Bostick. I would say----
    Ms. Frankel. That is not a criticism. That is really just a 
question.
    General Bostick [continuing]. It is a team effort. I just 
spoke to the new commanders yesterday. About half of them have 
experience in U.S. Army Corps of Engineers and about half do 
not. We have a good experience bringing them in, transitioning. 
They are learning from a firehose for those first 6 months or 
so, but they have great civilians and a great structure. And 
they can come from the district to the division to the U.S. 
Army Corps of Engineers headquarters for expertise and support. 
But, you know, when you compare our district commanders to, 
let's say, a commander that is going to take a brigade combat 
team into combat, those are 2-year commanders, sometimes they 
are extended. But those are very difficult, very tough 
missions. The only difference is we grow up on the combat side 
often as opposed to the U.S. Army Corps of Engineers side. But 
it is a valid point that you raised.
    Ms. Frankel. And the reason I raise it, is I think part of 
the frustration for those of us who are trying to see projects 
move along is that when there is new leadership, there is a 
learning curve. And then you are having to sort of reintroduce 
all the issues that you have been discussing for so many years. 
It is like it is over and over again.
    So I don't know whether there is a better way to do it. I 
can understand your point, but I think you can understand the 
frustration that we feel in having to almost repeat ourselves 
every time a new player comes into the role.
    General Bostick. We should do our jobs. We work very hard 
at making sure the transition is as seamless as possible.
    But one of the other things I would say about new 
commanders, they bring fresh ideas. They look at challenges 
differently. But most of them, we talk to them, they don't come 
in and try to change everything overnight. These are systems 
and processes that work, but some things do need change. And 
the questions that they ask cause us to think about why we are 
doing things that may not make logical sense.
    Ms. Frankel. All right. Thank you.
    I yield back.
    Mr. Gibbs. I just want to editorialize a little bit. I have 
had that conversation with General Peabody. I think the 
frustration is an interesting question, and the conversation I 
had with General Peabody on the civilian side, I think he is 
implementing and trying to implement a program to help, because 
in the military side, the officers have gone through a lot of 
training how to adapt to certain issues and handle certain 
situations, and there is a culture maybe in the civilian side, 
especially in the regulatory side that I think General Peabody 
is trying to address and build at--I don't know what the right 
words are. But I don't know if you want to expound on that.
    Go ahead, General.
    General Peabody. Sure, sir. So I guess this comes from my 
personal reflection that I am the product of 35 years of 
service, over 10 percent of which has been in formal military 
schooling on top of some civilian schooling and advanced 
civilian schooling that the Army has sent me to.
    When you look at the investment that we make in our 
civilians, we do invest in their education and training, but we 
don't have the same kind of system that focuses on the 
doctrinal understanding of how the Corps works. And the Corps 
is every bit as complicated in its own way as the Army is. In 
fact, I just took a briefing and sent General Bostick and 
Secretary Darcy a note, last week or the week before.
    We have the former executive director from the Society of 
American Military Engineers and a former Corps active duty 
military officer, Dr. Bob Wolff, under contract. He is working 
with several of our folks to develop the outlines of a training 
and doctrine approach for the Corps; not for the military guys 
because we tend to get taken care of, but we do tend to focus 
on some, Congresswoman Frankel, for the very reason you 
highlighted, which is they come in, they have a very short 
period of time, and so we need to spin them up quickly and get 
them focused.
    The stability, I think, is your concern, ma'am, that really 
is provided by the civilian experts. Mr. Steve Stockton, 
sitting behind me, is the key adviser I go to. And so all my 
whacky ideas go through the leavening process of talking to 
Steve, because he has 40 years of experience. He has seen 
pretty much everything, often multiple times.
    We need to accelerate that experience. We can't afford to 
wait 40 years. We can develop this policy orientation, 
statutory orientation, doctrinal program since we won't be able 
to invest the kind of time and energy that I benefited from as 
a military officer, but we can put together some webinars, and 
some periodic face-to-face training for short periods of time 
that does focus our civilian workforce as they matriculate up 
through the leadership ranks, starting basically at the 
district level and then moving up through division and 
headquarters to provide this broader understanding. If we can 
develop this over time, will help get it at many of the 
concerns and issues that this committee has addressed with us 
today.
    It will never be perfect, but I think just having a system 
that causes us to understand how things work, and most 
importantly, as the Chief pointed out, question ourselves about 
what we can do to change things and improve that system in 
place, will give us an institutional opportunity to improve.
    Mr. Gibbs. I think that would be helpful because, 
obviously, I don't think we are going to change the policy of 
the Department of Defense on the tenure. I don't think the 
colonels that come into districts have a long aspiration to 
stay there forever either in the districts. So that might be a 
good way to address the issue.
    General Peabody. And, sir, if I could highlight Mr. Brown, 
our Chief of Planning, who just reminded me, the one area where 
we probably have most advanced this concept is in the planning 
arena. Multiple reform mechanisms that you put in WRRDA were 
related to planning including completing feasibility in one 
phase by doing away with recon studies, and putting the 3x3x3 
process in the law.
    If you look at the history of our planning program, really 
over the last 15 years, this is part of a larger continuum of 
reforms that we have attempted to put in place, which includes 
the Planning Associates program. It includes IEPRs [Independent 
External Peer Reviews]. It includes model certification, all 
these things over time will start to build momentum and 
increase our efficiency and effectiveness, and it is difficult 
to point to one single thing and say that was the magic moment 
or that was the magic elixer. But together I think these things 
will actually work to achieve the kinds of things that both of 
us want to realize.
    Mr. Gibbs. Mr. Graves, you have the last question.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    As you saw in the last line of questioning, I am not sure 
that I am going to necessarily get answers and so maybe I 
thought that before I asked my questions, I want to lay out 
just a little bit of background. I just sat here and typed out 
some things that I recalled and looked up a little bit.
    I want to lay out the climate of what is happening in 
Louisiana and kind of help to define some of the frustration 
that we have. In some of the appropriations bills following 
Hurricane Katrina, the Corps was required to develop this LACPR 
[Louisiana Coastal Protection and Restoration] report. It was 
due in December of 2007. I don't remember which year it was. I 
want to say it was about 3 or 4 years late.
    Section 4303 required that a study on outfall canals be 
set. It had a statutory deadline. It was late. They required--
we required that a report identifying levee work for pre-
Katrina deficiencies versus the new levee standard be issued. 
It was late.
    They required that a Louisiana waters resources council be 
established to do the peer-review work. That was set up years 
later. Section 7004 of WRDA of 2007 required that they 
establish a task force. That still hasn't been set up.
    They required that an integration team be established under 
the task force. That hasn't been set up.
    They required that a comprehensive plan be due in December 
of 2008. It still hasn't been done. The MRGO [Mississippi River 
Gulf Outlet] restoration plan was due in 2008. It was submitted 
years late. Section 7007 we discussed the credit issue earlier 
that there is the disagreement. Right now, it looks like the 
State of Louisiana is going to be suing the Corps of Engineers 
under the 2007 and the 2014 laws now because the Corps is 
coming up with interpretations that I don't agree with and 
obviously people in the State and the attorney general's office 
don't agree with. Section 7006 of 2007 required that they 
submit construction reports for five projects. They were 
submitted late. Section 7006 also required that four 
feasibility reports be submitted by December 2009. All of those 
were late or maybe even haven't been submitted yet. I don't 
recall on those.
    Another set of six projects were due--project reports were 
due in December 2008. They were submitted years late. Section 
7011 requires that a report be done--a status report be done, I 
think it was at least 6 years later. I am fairly certain that 
has not been submitted. Section 7014 of WRDA 2007 require that 
the Corps provide specific project recommendations in the LACPR 
report. When that report was finally issued, there was not a 
single project that was actually explicitly recommended.
    Section 1019 of WRRDA 2014 on the crediting said that they 
had to have the crediting and the cross-crediting all 
identified and worked out with the State of Louisiana, which 
would have been September of last year. The first time they 
called the State of Louisiana was in October and the cross-
crediting work to date has still not been worked out.
    Section 1010 of WRRDA 2014 required that there is notice of 
construction completion, allow an appeals process when a non-
Federal sponsor does not agree that the budget be completed. 
The Corps has come back to the State when the State of 
Louisiana has tried to implicate that provision and they have 
said that that does not apply to work from Hurricane Katrina.
    Section 2013 of the 2014 bill said that the operations and 
maintenance of the Western Closure Complex and the Inner Harbor 
Navigation Canal shall be the responsibility of the Corps of 
Engineers with a non-Federal cost share. And the Corps has 
rejected taking over O&M there.
    So look, I am frustrated with these guys, and I think you 
all know that, and you like me kind of like a migraine. But all 
of this goes back to years and years of frustration where 
Congress has come in over and over again and provided explicit 
deadlines, and explicit requirements, and over and over again, 
the Corps of Engineers has largely invented their own 
interpretation or done what they wanted. And so I think that 
the frustrations at home in Louisiana are well founded.
    As we discussed at the last hearing, we had the Corps of 
Engineers coming out with the EPA in issuing these WOTUS 
[waters of the United States] regulations and talking about how 
important water, clean water, and wetlands are in the United 
States.
    And as I said in two hearings now, the Corps of Engineers 
is the cause of the greatest loss of wetland historically and 
perspectively in the United States. The credibility here is 
incredibly frustrating, and I reference the $1.7 million the 
Corps has indicated that the State owes on the LCA6 projects. 
The Corps of Engineers owes us State money right now on Davis 
Pond in Caernarvon. You are refusing to provide the funds. 
Should we refer that--should the State refer that to a 
collection agency as well as the Corps is trying to do when we 
have $100 million in credit built upright now?
    I know you don't agree with me, and I am not even going to 
ask you for a response. But I just want to be crystal clear 
that the frustrations that the State of Louisiana has, the 
frustrations that I have--Secretary Darcy, you and I sat side 
by side and wrote many of these provisions in 2007 that are 
being wholly ignored. The frustrations are very well founded. I 
understand that you are being told certain things up your chain 
of command, and in many cases, I don't believe that the things 
you are being told are accurate. And in many cases, I am 
believing that you are probably having your strings pulled by 
OMB and pushing you in a different direction, but Hurricane 
Katrina cost the country over $100 billion, $100 billion to 
respond.
    You all know that we could have prevented those lives that 
were lost and we could have prevented that expenditure by 
spending a fraction of that money. You are going to see that 
same scenario play out over and over and over again until 
things change. It is going to require fundamental change. And 
then I hope that we see a new direction for the Corps of 
Engineers moving forward because, otherwise, we are going to 
have profound consequences to the environment, to the economy, 
and to lives moving forward. It is incredibly disappointing.
    Mr. Gibbs. Do you wish to respond?
    General Bostick. One thing I would like to say, in all due 
respect, you know, Hurricane Katrina hit in 2005. When Isaac 
hit 7 years later and the President said that the Hurricane 
Storm Damage Risk Reduction System would be complete, we 
weren't late. It was largely done, it was done to a high 
standard, on time, to a high quality. It is the envy of the 
international community to come to New Orleans and see the work 
that the Corps of Engineers and the interagency had 
accomplished.
    I am not going to go down each and every item that the 
congressman has raised, but I will say from the President, 
Mayor Landrieu, the people of New Orleans, they were very 
appreciative of the end result of the work that we needed to 
accomplish.
    There are a lot of reasons for why things are late, not on 
time, and we aggressively pursue everything that the Congress 
tells us to do. We don't come up with our own rules. We don't 
come up with our own projects. We don't come up with our own 
money. We do what is authorized and appropriated, and we ignore 
nothing.
    Sometimes it seems that we misinterpret or interpret the 
law differently than others, but we are willing to sit down, 
Congressman Graves, and continue to work through these issues. 
We have the best people in the world that are highly dedicated 
and want to do the right thing for the people of not only New 
Orleans, but for the rest of the country, and we are committed 
to doing that.
    Mr. Gibbs. I would just like to respond. I think the Corps 
is dedicated, the personnel, and they want to do the right 
thing for the country. I think that is obvious. I have seen the 
workings with General Peabody, Secretary Darcy, and General 
Bostick.
    General Bostick, you came out to my district a year or so 
ago in a local area, if you remember, in Zoar. Appreciate that.
    I guess my concern is, first of all, Secretary Darcy on the 
back of my question on the Clean Water Rule, or WOTUS, I would 
appreciate if you could respond as fast as you can when you 
talk to counsel if you could get a response.
    Ms. Darcy. I will get it to you today, sir.
    Mr. Gibbs. And then, secondly, I think that what I have 
seen in 4\1/2\ years as chairman of this subcommittee, working 
with the Army Corps, I have seen some things that I think are 
out of the hands of the Army Corps of Engineers. And I think I 
am witnessing that on the WOTUS rule. And I think--I'd be 
interested to see what the Army Corps thoughts, internal 
thoughts, were that I mentioned earlier, and how the EPA 
responded because the EPA on the WOTUS rule that they 
implemented last week is more damaging to our economy and I 
think that actually erodes our--the strides we have made in 
water quality, for reasons I stated before--when you pile on 
more redtape bureaucracy, it doesn't help protect the 
environment. And that, you know, could have a chance to go 
backwards. I really am concerned about that, but I think the 
rule that they implemented is worse than what they were--the 
proposed rule after the hearings we had because when I look at 
the substantial nexus, the ditch, the exceptions, that there's 
about four or five exceptions that put ditches back into WOTUS 
that I think it includes almost every ditch. Think through 
that. And to think that we had to actually put in a rule that 
we specifically exempt swimming pools and puddles just goes to 
show that I think the whole thing is broken, the process is 
broken.
    So I look forward to seeing that memo that was created 
internally. And I also look forward to continuing working with 
the Corps on the implementation of WRRDA. That is what this 
hearing was primarily about today, and we have some challenges 
there yet. But I think we can get there, and we made a big deal 
about the new mechanism we put in there for developing what the 
needs are out there, and we need to work with that and ask them 
back to this committee so we can authorize that and keep this 
economy--supply the infrastructure, the maritime infrastructure 
to increase our competitiveness in the global marketplace.
    Ms. Darcy. I wanted to respond to both you and 
Congresswoman Frankel's comments about the district commanders 
changing so frequently. I think one of the reasons people don't 
like to see them change so often is not only because of the 
learning curve, but because the quality of the officer that you 
have leaving these districts and leaving these divisions. One 
of the reasons you have those quality officers is because 
people, like General Bostick, who is the Chief of Engineers, 
looks at these officers and makes a determination of what is 
the best fit for each of these districts and each of these 
divisions. His experience as the G-1 and the Army has helped 
with that, plus his concern for and his dedication to making 
sure that these are the best officers to deliver the mission 
for the Civil Works program.
    Mr. Gibbs. But I do think that General Peabody has actually 
hit on something on the additional training on the civilian 
side. I think that would be beneficial and help maybe mitigate 
some of those concerns.
    So thank you for being here today. This committee stands 
adjourned.
    [Whereupon, at 12:28 p.m., the subcommittee was adjourned.]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                                [all]
                                
                                
</pre></body></html>
